<html>
<title> - FAA REAUTHORIZATION: ADMINISTRATION PERSPECTIVES</title>
<body><pre>[Senate Hearing 115-221]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-221

                         FAA REAUTHORIZATION: 
                      ADMINISTRATION PERSPECTIVES

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                Available online: http://www.govinfo.gov
                
                
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-974 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6700170827041214130f020b174904080a49">[email&#160;protected]</a>                
                
                
                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 7, 2017.....................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     2
Statement of Senator Wicker......................................    11
Statement of Senator Cantwell....................................    12
Statement of Senator Fischer.....................................    14
Statement of Senator Blumenthal..................................    16
Statement of Senator Moran.......................................    17
Statement of Senator Inhofe......................................    19
Statement of Senator Schatz......................................    20
Statement of Senator Markey......................................    22
Statement of Senator Hassan......................................    24
Statement of Senator Heller......................................    25
Statement of Senator Peters......................................    27
Statement of Senator Gardner.....................................    29
Statement of Senator Young.......................................    31
Statement of Senator Cortez Masto................................    32
Statement of Senator Duckworth...................................    34
    Article from Politico dated June 2, 2017 entitled ``White 
      House orders agencies to ignore Democrats' oversight 
      requests'' by Burgess Everett and Josh Dawsey..............    37
Statement of Senator Klobuchar...................................    39

                               Witnesses

Hon. Elaine L. Chao, Secretary, U.S. Department of Transportation     4
    Prepared statement...........................................     5

                                Appendix

Response to written questions to Hon. Elaine L. Chao submitted 
  by:
    Hon. Jerry Moran.............................................    43
    Hon. Dan Sullivan............................................    44
    Hon. Dean Heller.............................................    47
    Hon. Bill Nelson.............................................    49
    Hon. Richard Blumenthal......................................    50
    Hon. Cory Booker.............................................    51
    Hon. Catherine Cortez Masto..................................    52

 
                         FAA REAUTHORIZATION: 
                      ADMINISTRATION PERSPECTIVES

                              ----------                              


                        WEDNESDAY, JUNE 7, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Fischer, 
Moran, Sullivan, Heller, Inhofe, Lee, Capito, Gardner, Young, 
Nelson, Cantwell, Klobuchar, Blumenthal, Schatz, Markey, 
Booker, Peters, Duckworth, Hassan, and Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. I want to welcome Secretary 
Chao back today. This is her first time before the Committee 
since being confirmed.
    Madam Secretary, I want to thank you for appearing before 
us today to discuss reauthorization of the FAA. We are working 
hard on a bipartisan basis to produce a bill, hopefully, during 
this work period, and we appreciate the Administration's 
engagement.
    Already this year, the Committee has held hearings on a 
range of topics underpinning this legislative effort, including 
safety, drone policy, rural issues, aircraft certification, 
consumer concerns, and infrastructure financing. One of the key 
governance issues we have not yet focused on this year but 
which has been discussed extensively over the last 2 years and 
commonly occurs in other parts of the world is whether the 
United States should separate the air traffic service provider 
function from the FAA and create a nongovernmental, not-for-
profit corporation to do the job.
    The FAA runs a remarkably safe operation, but outside 
auditors have dinged the Government's performance on delivering 
safety and efficiency upgrades, prompting a debate as to the 
best path forward to realize those benefits. This week, the 
President used his bully pulpit to join the proponents of 
significant reform. The President has challenged Congress, his 
administration, and aviation stakeholders to take bold action 
to improve our air traffic control system.
    It is hard to ignore the many independent studies and 
reviews that document the flaws with the current structure. I'm 
looking forward to a robust discussion today on the merits of 
the reform proposals as well as ways the Administration will 
seek to address concerns of key stakeholders, especially those 
with a rural perspective.
    While ATC reform has garnered much of the attention this 
week, there are plenty of other important issues that require 
the consideration of the DOT and this committee. The Department 
administers several key programs, including the Essential Air 
Service Program, and is responsible for consumer protection 
oversight for the aviation industry. Last month, Aviation 
Subcommittee Chairman Blunt and Ranking Member Cantwell held a 
hearing on recent consumer issues, and I'm interested to hear 
directly from the Secretary on what steps the Department has 
taken to address these matters.
    In addition, as we craft our FAA bill, we will continue to 
focus on certification reform, the integration of drones into 
the airspace, airport infrastructure development, aviation 
safety, and rural air service. There is still a lot of work to 
be done, and I look forward to working with the Administration 
and all of my colleagues throughout the process.
    With that, I reiterate my thanks to Secretary Chao for 
being here and turn to Ranking Member Nelson for his opening 
statement.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman, and thank you also 
to the Committee in the way that it is so interested in this 
subject and with which we dispatched this subject matter last 
year in an exceptionally bipartisan way and an almost unanimous 
way.
    Madam Secretary, welcome. The current extension of the FAA 
is set to expire the end of September. I'm hopeful that we are 
going to have a bipartisan and a long-term reauthorization bill 
ready to go in the coming weeks and what I had expressed as my 
preference to you just a few minutes ago, a bill somewhere in 
the range of 5 years to give you certainty over time that you 
have the authorization with which you need to execute the 
Executive Branch of government.
    I remind our committee that we passed this one-year 
extension with a lot of substantive stuff in it 95 to 3 in the 
Senate, and at the time, the Chairman and I focused on areas of 
agreement. This resulted in legislation that addressed the safe 
integration of drones in the national airspace, significant 
reforms to the FAA certification process, and broad-ranging 
aviation consumer issues. This was a win for aviation 
stakeholders as well as the traveling public, which was 
reflected in that overwhelming vote.
    Now, any further progress on that bill was thwarted in the 
House by the proposal of privatization of air traffic control. 
So we now operate just on a one-year bill with a new looming 
deadline.
    Madam Secretary, I understand that you will present the 
Administration's support for shifting ATC services from the FAA 
to an independent entity that will be governed, in part, by the 
airlines. My views on this matter I have already shared with 
you are the same as I expressed rather vigorously last year 
when this subject was up for debate. Why? Because we have the 
safest air traffic control system in the world. Why would we 
risk that by handing the whole thing over to an untested, 
unproven entity? And why give away billions of dollars in 
government assets to an entity that will be governed in large 
part by the airlines?
    Even some of our colleagues on the other side of the aisle, 
which really is not so much applicable to this committee as it 
is to the full Senate, have not rallied behind this proposal 
because they understand the potential harm to general aviation 
as well as to small and rural communities, and a fundamental 
breakup of the FAA cannot advance when there is such strong 
division among aviation stakeholders and in Congress. So this 
entire discussion over ATC privatization distracts from 
legitimate matters that must be addressed by the Congress on 
the part of FAA reauthorization.
    Now, it's no secret that the traveling public is 
frustrated, and I want to support what the Chairman has said 
about this matter. There are certainly ways that we can be more 
efficient. We are right at the point of handing over a lot of 
the communication via radar to the GPS satellite system. That, 
as I understand it, is going to occur in about 3 years, whereas 
the remaining implementation of the entire next generation is 
going to be over a dozen years. That can certainly be made more 
efficient and effective, and, indeed, it will save time and 
fuel and money for the traveling public as well as the 
airlines.
    If you can go from Point A to C, instead of having to go a 
route because of a radio beacon from A to B to C, and you can 
cutoff that dog lag with a beeline straight to your 
destination, then it saves a lot of time, fuel, and money. 
That's the point of NextGen, plus having situational awareness 
in the cockpit so that you know at all times, because you have 
a much improved communication system in the cockpit--that you 
know what other traffic is around you.
    At the same time, the traveling public is frustrated. Look 
what we are seeing every day. They're frustrated they can't 
check their bags or board flights with increasingly shrinking 
sizes of and/or overbooked seats without paying fees. So one of 
the airlines is ordering a whole new set of Boeing 737s, and 
instead of 31 inches between the seats in tourist, in fact, 
they're going to get it down to 29 inches because they are 
going to put in this new Boeing 737 an additional 12 seats in 
the same amount of cabin space.
    Passengers are expressing their frustration. They're 
frustrated that airlines won't design their websites that 
clearly communicate their fees and policies. They're frustrated 
that failing airline IT systems result in canceled and delayed 
flights for days on end, and I see a lot of our members with 
very interested expressions on their faces, because it's 
happened to us as well.
    So this is why this year's FAA reauthorization legislation 
must once again include strong consumer protections to address 
these growing frustrations. After all, if the airlines can't 
even manage their own IT systems, you can imagine that if you 
took and put all of that over into air traffic control, that 
doesn't give us a very good result.
    So let's deal with the real problems, like the way 
passengers should be treated as valuable customers, which the 
airlines obviously want to do. Let's not go around trying to 
find a solution in search of a problem that's not a problem. So 
let's keep the focus on a bipartisan long-term and, I'd say, 5-
year comprehensive FAA reauthorization bill, and let's try to 
do it and show that, actually, in this Congress, we can get 
something done and something passed in a bipartisan way.
    So, as usual, Madam Secretary, all of us look forward to 
working with you. You're an excellent public servant. You have 
given yourself to public service over the years, and we 
appreciate that very much.
    Thank you.
    The Chairman. Thank you, Senator Nelson.
    Madam Secretary, we gave you a lot to chew on there, so we 
look forward to hearing from you, and, if you would, please 
proceed with your remarks, and then we'll open it up to the 
panel for some questions. So thank you again for being here. 
Welcome.

         STATEMENT OF HON. ELAINE L. CHAO, SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Secretary Chao. Thank you very much. Chairman Thune, 
Ranking Member Nelson, and members of the Committee, thank you 
for inviting me to testify before this committee on the future 
of the Federal Aviation Administration and the FAA 
reauthorization legislation.
    You know, nearly a century has passed since the Federal 
Government began regulating the Nation's airspace. We've come a 
long way since the transcontinental airway system of the 1920s, 
guided pilots flying at night with light towers and huge 
concrete arrows painted yellow. In the decades since, a 
progression of congressional and Presidential initiatives has 
resulted in the air transportation system we know today and 
altered the regulatory framework along the way, sometimes quite 
dramatically.
    To keep up with evolving technology, new regulatory 
entities were created and old ones were restructured to make 
more efficient and effective use of our nation's airspace and 
to improve aviation safety. We can all take pride in the 
tremendous gains that have been achieved.
    But as you well know, the pace of technological change has 
increased dramatically over the past several decades. At the 
same time, the traditional model of government procurement and 
budgeting is making it more and more difficult to keep up. Air 
traffic control is a perfect example. Despite billions of 
dollars of taxpayer investments over several decades, the 
implementation of state-of-the-art air traffic control 
technology is not where it needs to be.
    So this administration has taken a bold step and joined 
many of our counterparts worldwide by separating air traffic 
control operations from the safety oversight functions of the 
FAA. This administration's proposal would create a separate 
non-governmental, non-profit cooperative to operate our 
country's air traffic control system. The new entity would be a 
fully capitalized, financially self-sustaining entity funded by 
users of its services. All surplus revenues would be reinvested 
back into the system, because just because it's non-profit 
doesn't mean that it doesn't accumulate surpluses.
    Mindful that the key to any organization's success is its 
employees, the Administration's proposal poses that the new 
entity honor existing labor agreements and that employees 
transferred from the FAA would be kept whole in terms of pay 
and benefits, although they would no longer be Federal 
employees.
    These reforms will accelerate the deployment of new air 
traffic control technology that is so critical to managing the 
national airspace with more precision, thereby enhancing 
safety. Passengers will benefit because these reforms will 
speed up the delivery of new technology that will reduce delays 
and congestion. Air traffic controllers will benefit because 
these reforms will ensure that they have the most up-to-date 
tools and technology. And I want to single out and thank these 
dedicated professionals who are, indeed, the best in the world. 
They are true heroes, keeping the flying public safe every day. 
Taxpayers will benefit because the system will be fully 
financed with user fees. And let me mention again that 100 
percent of the surplus will be able to be reinvested back into 
the system.
    We also believe that the proposed new entity is necessary 
to accommodate the expected dramatic increase in passenger 
traffic over the next decades and to integrate new entrance 
into our airspace, such as unmanned aircraft systems and 
commercial space operations. My written testimony contains more 
detailed information on the proposal, and, of course, 
legislative language to be submitted will contain many more 
details.
    It is worth noting that over the past 20 years, more than 
60 countries have successfully managed similar ATC, air traffic 
control, reform efforts. Each country is different. We 
recognize that, and we also recognize that the U.S. national 
airspace is the biggest and most complex in the world. 
Nevertheless, there are lessons to be gleaned from the 
experience of other countries, and we need to embrace 
transformational reform.
    Innovation and the ability to change with changing times is 
one of the hallmarks of our country and part of our aviation 
history. The proposed reforms will ensure that the United 
States remains the world's leader in aviation going forward 
into the future, and this is an industry that we pioneered.
    So thank you for the opportunity to appear before you 
today, and I'll be happy to take any questions that you may 
have.
    [The prepared statement of Secretary Chao follows:]

         Prepared Statement of Hon. Elaine L. Chao, Secretary, 
                   U.S. Department of Transportation
    Chairman Thune, Ranking Member Nelson, Members of the Committee:

    Thank you for inviting me to speak with you today on the future 
direction of the Federal Aviation Administration (FAA). The upcoming 
FAA Reauthorization provides an opportunity to build on the FAA's 
safety record and encourage innovation and creativity. Every day, the 
dedicated men and women of the FAA safely and efficiently separate and 
guide thousands of aircraft carrying millions of passengers and tons of 
cargo to destinations around the country. Despite the FAA's outstanding 
safety record, the agency is increasingly challenged to address the 
quickly evolving needs of the Nation's airspace users.
    Over the years, representatives from the Department of 
Transportation and the FAA have come before you to discuss new and, all 
too often, ongoing challenges. As this Committee previously recognized, 
some of the major ongoing challenges facing the FAA involve being able 
to respond to the demands of the users of the national airspace, the 
flexibility to execute its priorities, and funding stability. The FAA 
has responded to these challenges by prioritizing its work, knowing 
that safety cannot be compromised. However, the time has come to 
address these challenges head on. The need for a comprehensive FAA 
Reauthorization, including a new governance structure for air traffic 
control operations (ATC) is critical to address these challenges. The 
Administration has introduced its principles for crafting legislation 
to accomplish this reorganization.
    These principles include the creation of a private, nonprofit 
cooperative for air traffic control, leaving the FAA to focus on its 
oversight and safety duties. Separating the regulated entity from the 
regulator is hardly a novel concept; that is but one element of the 
Administration's proposal to transform American's aviation system.
    Our skies are becoming increasingly congested; flight delays and 
time wasted on the tarmac waiting for clearance are the new normal. 
Some domestic flights between the same two cities today actually take 
longer than they did decades ago because of congestion and indirect 
routing. What this means is that we do not have a system that can 
handle increasing capacity and still maintain safety.
    Our air traffic organization must be more nimble. A bulky Federal 
Government procurement apparatus does not move fast enough to keep pace 
with new technologies and new demands. A private non-profit entity with 
the flexibility and authority to make investment decisions can move 
much more quickly to replace old equipment and paper flight strips with 
the latest technology.
    A private entity, with an impartial board of directors, is directly 
responsive to the users of the National Airspace System--delivering the 
air traffic services that users demand, and charging for the cost of 
those services. ATC improvements could be made more effectively by an 
organization supported by its own revenue. Fees charged to users of 
these services will support the new entity, and any surplus revenue 
will be reinvested to keep the system current. This is an improvement 
from the today's mix of aviation taxes that are not tied to the use of 
air traffic control services.
    Today, the FAA must deal with NextGen implementation, the 
integration of new entrants such as Unmanned Aircraft Systems (UAS), 
and aviation safety reforms, including aircraft certification and cyber 
security.
    Among other important safeguards, legislation based on the 
Administration's principles would ensure that the government would work 
with key stakeholders to achieve a responsible and seamless transition. 
This transition will be vital to provide operational continuity and 
protections for existing employees and system users--all without impact 
to the FAA's safety mission.
    While the U.S. remains the gold standard in aviation, the FAA 
understands that continued innovation and modernization are important 
to safety and global leadership. Shifting air traffic control out of 
the government, improving accountability to aviation users and 
adaptability in its operations are key steps to achieving these goals. 
While NextGen modernization has been implemented at certain airports 
and facilities under current constraints, FAA's efforts are often 
hampered by piecemeal government appropriations and a slow Federal 
procurement process. A private, nonprofit ATC co-op would be able to 
leverage private sector financial tools with agility and ingenuity, and 
accelerate advances in aviation technology. Combined with a steady, 
predictable revenue stream from user fees and borrowing from capital 
markets when necessary, the new ATC would be able to make the best 
modernization investment decisions to keep ATC technology up-to-date 
and competitive with that of our global peers.
    Even under its current constraints, the FAA has been engaged with 
and responsive to industry. The NextGen Advisory Committee (NAC), 
comprised of aviation stakeholders, is the most prominent avenue for 
industry collaboration. It advises the FAA on policy-level issues 
facing the aviation community in implementing NextGen and plays a 
critical role in defining priorities so that the FAA can focus its 
investments and deliver the NextGen capabilities that matter most to 
the customers.
    The NAC previously identified the development of Data 
Communications (Data Comm) as a priority. Voice communications can be 
time consuming and labor intensive. For example, when planes are 
awaiting takeoff, controllers must use a two-way radio to issue new 
routes to pilots to help them avoid bad weather. This process can take 
30 minutes or more, depending on how many aircraft are in line for 
departure. It also introduces the potential for miscommunication known 
as ``readback/hearback'' error. Data Comm dramatically reduces 
communications time, which results in faster taxi outs and reduced 
delays. Data Comm also enhances safety by virtually eliminating the 
chance of the flight crew misunderstanding the message from air traffic 
control. Data Comm is now operational at 56 air traffic control towers 
nationwide and is installed on over 3,800 aircraft operating in the 
Nation's airspace. However, expanded Data Comm services at all FAA en 
route air traffic control centers will not begin until 2019. While Data 
Comm delivered capabilities to air traffic control towers ahead of 
schedule and on budget, deployment to en route centers could happen 
faster with a non-governmental entity. Government is simply not the 
most effective generator for change, particularly involving technology.
New Entrants
    The Department of Transportation and the FAA are uniquely 
positioned, but not adequately equipped, to assimilate the exciting new 
technologies that are revolutionizing our transportation 
infrastructure, such as unmanned aircraft systems (UAS)--more commonly 
referred to as drones. Drones are the new frontier of aviation and the 
Administration is committed to making America the world leader in UAS 
technologies and applications. It is a priority of this Administration 
to fully and expeditiously integrate drones into the NAS so that they 
may operate harmoniously, side-by-side with manned aircraft. Safely 
integrating new entrants, such as drones, into the NAS will require a 
flexible governance framework that can adapt to new capabilities, 
technologies and users and effectively coordinate with all 
stakeholders. The Administration recently sent draft legislation on 
Unmanned Aircraft Systems (UAS) to the Congressional Armed Services 
Committees for inclusion in the Fiscal Year 2018 National Defense 
Authorization Act. This legislation is an important step in unlocking 
the promise of a new era in aviation and industry development. Under 
current law, the government is unable to fully evaluate or utilize 
essential detection, tracking, and mitigation technologies to counter 
rapidly advancing safety and security risks that may be posed by errant 
or hostile UAS operations. The Administration's proposed legislation 
provides a tailored grant of authority within a framework that provides 
effective oversight and protects privacy, civil liberties, and airspace 
safety. I ask for the Committee's support for this important piece of 
legislation as DOT and interagency partners work with Congress to its 
hopeful enactment into law this year.
    Drones present unique security challenges. As Congress recognized 
in the FAA Extension, Safety and Security Act of 2016 (FAA Extension) 
these challenges require a whole-of-government response. The FAA is 
working with several departments and agencies-including the Department 
of Justice, Department of Homeland Security, Department of Defense, and 
others-to identify and evaluate technologies that detect, and track 
unmanned aircraft movement through the NAS, and mitigate threats posed 
by UAS in a safe manner.
    As directed in Section 2206 of the 2016 FAA Extension, the FAA has 
established a pilot program and is working with interagency partners to 
evaluate some of these technologies, which have been tested in airport 
environments at New York's JFK Airport, Atlantic City International 
Airport, and Denver International Airport. The FAA recently completed 
another test session at the Dallas-Fort Worth Airport. Additionally, 
the FAA is working with interagency partners to develop policies and 
procedures for restricting UAS operations over fixed site facilities, 
as directed by Section 2209 of the 2016 FAA Extension.
    Moving forward, the FAA intends to build on the progress that it 
has made. One example of an initiative currently underway is the FAA's 
development of an automated process for drone operators to notify ATC 
of flights within five miles of an airport or to get authorization to 
fly in certain classes of airspace. Developed in partnership with 
industry, this initiative, known as the Low Altitude Authorization and 
Notification Capability (LAANC), will provide operators with a 
streamlined solution to enable notification and authorization, with the 
goal of near real-time processing of airspace notifications and 
automatic approval of routine requests. Once fully operational, LAANC 
will be the first step toward implementing UAS traffic management 
(UTM), as directed by the 2016 FAA Extension.
    The FAA continues to involve all stakeholders in framing 
challenges, prioritizing activities, and developing consensus 
solutions. Last summer, the FAA formed the Drone Advisory Committee 
(DAC). Its members include representatives from industry, government, 
labor, and academia. The DAC will allow the FAA to look at drone use 
from every angle, while considering the different viewpoints and needs 
of the diverse UAS community. Currently, the DAC is assisting the FAA 
in three key areas: identifying the roles and responsibilities of drone 
operators, manufacturers, and government officials concerning drone use 
in populated areas, determining what the highest-priority drone 
operations are and how the FAA can enable access to the airspace needed 
to conduct these operations, and how to fund the full complement of 
services required to safely integrate drones into the NAS in the long-
term.
    The FAA has ambitious plans for UAS integration. Contrary to other 
countries who merely wish to segregate UAS operations, the FAA's long-
term plan is to fully integrate UAS into the NAS. This endeavor will be 
a complex process requiring creative new pilot projects, the use of new 
technology to identify users, the development of a guidance framework 
aimed at supporting technological advancement, and the involvement of 
multiple partners nationwide. While the FAA has made great strides to 
integrate UAS into the NAS, full integration would substantially 
benefit from comprehensive FAA Reauthorization, including a stable, 
efficient, and flexible air traffic control corporation.
Risk-Based Decision Making
    The aviation industry is undergoing a transformation, with hundreds 
of thousands of new entrants, and cutting-edge advancements in 
technology. Comprehensive FAA Reauthorization, including a new, private 
ATC entity, is critical to support the FAA in its efforts to continue 
to set global standards in areas such as aircraft certification 
transformation, and emerging cyber security threats.
    Government must be a catalyst for innovation, not an impediment. To 
that end, the FAA's safety organization has capitalized on its current 
flexibilities to implement a risk-based decision making approach that 
will enable it to keep pace with industry while continuing to increase 
the level of safety. In the area of aircraft certification, the FAA is 
moving beyond the reforms that Congress directed in the FAA 
Modernization and Reform Act of 2012 to transform its Aircraft 
Certification Service (AIR) to meet the demands of today's dynamic 
aviation environment. Refreshing the certification strategy means FAA 
will take a systems approach, relying on industry's processes and 
competencies based on risk management. This minimizes our involvement 
along the certification path to those areas of higher risk.
    To support this shift to a risk-based management model, the FAA is 
making investments in information technology that will allow it to 
adjust its level of involvement and assign its resources accordingly. 
Perhaps most importantly, the FAA is investing in its people. By moving 
away from an organizational structure based on geographic locations to 
an organization built around the functions AIR performs, AIR will 
better match industry's demands and global needs. Emphasis will be 
placed on up front planning on new technologies with industry, 
development of reusable compliance techniques adaptable to industry, 
and a shared risk-based oversight program with industry.
    We know industry wants to maximize the Organizational Delegation 
Authorization, or ODA--and the FAA is doing just that. For example, AIR 
recently created a new Organizational Performance Division that will 
oversee its roadmap to transformation, tracking outcomes expected by 
both the FAA and industry. The new division will establish agreed upon 
metrics and effectiveness measures for both the FAA and industry. In 
this new organizational framework, the FAA and industry will hold each 
other accountable to meeting these metrics.
    With the support of Congress, the FAA has also completed the first 
major revision of its aircraft certification regulations. In December 
of last year, the FAA issued new performance-based rules for small 
aircraft certification in 14 CFR part 23. Instead of prescribing 
certain technologies and designs, the new rules define performance 
objectives and give industry the flexibility to determine the best and 
safest way to meet them. A major endeavor in conjunction with this 
revision is streamlining the cost and timelines associated with 
acquiring and installing safety enhancing equipment in the general 
aviation cockpit. We want to ``right size'' the level of rigor applied 
in certifying this new technology based on the overall risk it 
presents, balanced by the potential safety enhancement it introduces. 
The FAA has also streamlined the process of installing other non-
required safety enhancing equipment in the general aviation cockpit.
Other Priorities
    The FAA recognizes that cyber security is one of our greatest 
challenges, because threats change continuously. We know that the 
agency must be vigilant, particularly as new technologies and 
procedures are added into the NAS. In 2015, the FAA tasked its Aviation 
Rulemaking Advisory Committee (ARAC), comprised of industry 
stakeholders, to form a working group to provide recommendations on 
cyber security aimed at the full spectrum of civil aviation products--
from transport aircraft to general aviation aircraft to engines. The 
FAA intends to use these recommendations to promote the establishment 
of an international standard to protect civil aircraft from cyber 
vulnerabilities.
Conclusion
    To accommodate growing air traffic and address the quickly evolving 
needs of the Nation's airspace users, Congress should be ambitious and 
embrace a bold, comprehensive vision for FAA Reauthorization. To 
maintain its status as the global leader in aviation, the 
Administration's proposal to separate ATC into a non-profit entity, 
with the ability to charge for air traffic services and governed by an 
impartial Board of Directors representing the broad stakeholders that 
use the national airspace, will accomplish this. The critical aviation 
safety activities such as the certification of manufactures and pilots, 
safety oversight of aviation operators and the air traffic control 
private entity, and the regulation of new entrants such as UAS, would 
be maintained in the FAA. The Administration is committed to working 
with Congress to foster American innovation in aviation and solidify 
America's role as the global leader in aviation.
    This concludes my statement. I look forward to working with you and 
the members of the Committee as we move forward on FAA Reauthorization.

    The Chairman. Thank you, Madam Secretary.
    As I mentioned in my opening statement, there have been 
many concerns raised regarding the recent proposals for ATC 
reform and the potential impact on small community air service. 
I was glad to see that the principles announced by the 
President this week underscore the need to maintain access and 
services for rural communities.
    My question is: How does the Administration envision this 
proposal for a new ATC entity ensuring that there are such 
safeguards in place for rural America?
    Secretary Chao. The Administration's proposal will enhance 
safety, improve access, and also increase efficiency. All of 
these features will help to make the system better. As we have 
already heard, the congestions and delays that we are seeing in 
our airspace can be alleviated by a different governing 
structure. The tardiness with which we are implementing 
technological advances can be addressed through taking this air 
traffic control entity out of bureaucratic government 
procurement rules.
    We have the best and safest system in the world. We want to 
maintain that. And to enable the system in the future to 
maintain its supremacy, we need to have the much needed 
technological advances. We need to have a different way for the 
air traffic control system to be able to space airplanes, for 
example.
    On the rural front, I'm very concerned about access for 
rural America. Currently, the rural areas are most hurt by the 
status quo in terms of low traffic towers, air traffic control 
towers, many of which are the first to be cut in any budgetary 
cutbacks. So access for rural America would actually be 
enhanced if the air traffic control system were taken out of 
the bureaucratic government budgeting and procurement 
processes.
    The Chairman. I guess I would add that, as you would 
understand, if you look at the composition of this committee, 
there are a lot of people who represent rural states----
    Secretary Chao. Absolutely.
    The Chairman.--with a lot of geography and not a lot of 
people and smaller airports and smaller communities where 
general aviation is very important. Like you, I share a concern 
that rural areas be treated fairly and that there be safeguards 
put in place. And, I guess, specifically, my question was to 
what safeguards in the Administration's proposal--in what ways 
would they go about ensuring that rural areas would continue to 
have access, and that that access to the Nation's air system 
would be affordable?
    So if you have--maybe you haven't, at this point, since 
there's no legislation, specifically, to look at, sort of gamed 
that out. But that's something, obviously, a lot of people on 
this committee would be interested in knowing about.
    There were editorials in yesterday's Washington Post and 
several other papers that echoed the President's call to spin 
out the ATC function from the FAA, and they noted that the 
basic concept has been around for a long time and has enjoyed 
support by both Democrats and Republicans at various times. 
Still, there are some who question the need for major change.
    What would you say, for instance, to those who argue that 
NextGen is working out fine and that reforming the ATC system 
will actually slow down the modernization process?
    Secretary Chao. Well, we respectfully disagree. The men and 
women who work on NextGen are doing their very, very best, and 
we do not want to criticize them. But the NextGen effort has 
been going on for quite a while, it has expended billions of 
dollars, and we are still facing many, many delays, 
congestions, and procurement issues that existed decades ago.
    I was a Deputy Secretary of Transportation in 1989. Coming 
back into the Department in 2017, I am hearing the same 
arguments, the same descriptions of the problems as I did then. 
The procurement issues are real, and we need to make sure that 
the hardworking men and women who man our air traffic control 
system have the latest technology. Right now, the air traffic 
control system is still operating from vacuum tubes and also 
paper strips in an age where we have digital technology 
available. So we need to, again, equip our tremendous air 
traffic controllers with the best tools that they can have 
going into the future.
    The Chairman. Thank you.
    Senator Nelson?
    Senator Nelson. Madam Secretary, we'll just have a 
disagreement on this, and I appreciate the position that you 
have to articulate for the Administration, for the White House, 
and entirely respect you as you go about your duties.
    I would point out that one of the reasons for the delays on 
the NextGen implementation is lack of money, and lack of money 
also gets in the way--for example, a lot of rural airports are 
covered by contract towers. They're not FAA, and we went 
through that drill a couple of years ago and had to really get 
with it, because some of those contract towers were being cut 
out simply as savings.
    A lot of the rural airports that don't have them now would 
like to have contract towers. But, again, it's a function of 
money. I don't think, when you compare that to implementation, 
that that is a reason why you suddenly turn all of the 
government assets over to a private entity. That is my opinion, 
and we will certainly in the crucible of debate and amendments 
proceed and see where it comes.
    I want to give most of my time to the other members, 
because it's pretty well known where I am. But before I turn it 
over, I just want to give you another topic for your 
consideration. Takata airbags have been linked to 180 injuries 
and 11 deaths. Several of those have occurred in my state.
    Last week, we released data from an independent monitor 
that showed that after 2 years of the nationwide recall, two-
thirds of the cars out there still have not been repaired. It 
appears that since you were sworn in, Madam Secretary, the 
National Highway Traffic Safety Administration has not taken 
any further action to speed up the process.
    Last Friday, Chairman Thune and I sent you a letter 
requiring additional action to get the process moving again. So 
I wish you would be refreshed on the contents of that letter 
and see if you could crack the whip on NHTSA to get them going. 
Do you have any additional detail or steps that you might want 
to share with us at this point?
    Secretary Chao. Senator Nelson, thank you very much for the 
letter that you and the Chairman have sent. We are in receipt 
of the letter. It just came in the last few days. We understand 
that this is a concern to you. This is also a concern to us. We 
are working diligently on this issue, but, obviously, it's not 
fast enough. So thank you for reminding us and, indeed, I will 
go back and we will redouble our efforts.
    Senator Nelson. Thank you.
    The Chairman. Thank you, Senator Nelson.
    Senator Wicker?

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Well, it's wonderful to see you again, 
Madam Secretary. Let me just say with regard to the air traffic 
control proposal that this is a tough sell in states like my 
state of Mississippi, where the small airports are very 
concerned about where this will leave them, and I think you're 
going to see this on both sides of the aisle. So the sell needs 
to be made and needs to be made convincingly.
    What assurances can you give us about the fear of higher 
air fares and higher fees resulting from this proposal, 
particularly in light of the fact that the privatized model in 
Canada and the United Kingdom found that after the first 6 
years, in Canada, there was a 59 percent increase, and in the 
United Kingdom, a 30 percent increase?
    Secretary Chao. I think Canada actually had a 30 percent 
decrease in user----
    Senator Wicker. In the United Kingdom, ATC fees rose 30 
percent, according to a study that I've seen. But your 
testimony is that, in fact, the fees decreased?
    Secretary Chao. For general aviation, which I know there is 
an area--is a group that is very concerned about that.
    Senator Wicker. Well, OK. Let me just say that that's 
something we need to nail down, and folks back home need a 
comfort level----
    Secretary Chao. Yes.
    Senator Wicker.--about what this might result in. What do 
you say to the statement--and let me turn it into a question--
of Senator Nelson about the effect of this on the contract 
towers, and can you comment on the value of contract towers?
    Secretary Chao. The contract towers are very important to 
rural America. So let me emphasize again that I understand and 
I'm very, very concerned about the impact on rural America, 
because I come from a state that is rural. I know that the 
majority of the members of this committee come from rural areas 
and rural states. So I take into advisement very seriously this 
concern about how to address the rural issues. The ironic thing 
is the contract towers are actually much better if the 
governance system were separate. For example----
    Senator Wicker. How do we know that?
    Secretary Chao. Contract towers are the first to go in any 
budgetary cutbacks. When we have sequestration, when there are 
CRs, when there are uncertain budgetary demands, as Senator 
Nelson mentioned, it's a matter of money, and the contract 
towers are always the first to go, and yet they're so important 
to rural America. So if the air traffic control system were to 
be separated, and it was able to have a much steadier budget 
stream, budget scenario, the threat to the contract towers 
actually drops, and that would be very good for rural America.
    Senator Wicker. Well, we'll be visiting about this over 
time. Let me shift in the minute and a half I have left.
    We had testimony from the Air Force yesterday about the 
global shortage of pilots, and, certainly, that affects the 
civilian sector, too, here in the United States and with all of 
our allies. Can you comment, and do you have any specific 
recommendations about what your department might do in working 
with all concerned entities to address the pilot shortage, and 
do you acknowledge that there is a serious shortage?
    Secretary Chao. Well, the 1,500 hour rule was put in by 
Congress, and it has set a much higher standard for the number 
of hours, obviously, that a potential pilot has to attain 
before they can enter into service. So that's really an act of 
Congress, and there's very little that the Administration or 
the Executive Branch can do about that.
    Senator Wicker. Well, let me say there's a larger problem, 
though, and I would direct your attention to the problem that 
General Goldfein mentioned yesterday, the Chief of Staff of the 
Air Force. There is just a shortage across the board, in the 
military, in the Air Force, in the Navy, in the United Kingdom, 
in the air forces, and also among the commercial pilots. 
There's an overall shortage, which we and our friends are going 
to have to deal with.
    So I would simply ask you to go back to the Department and 
see if we can, on the civilian side and the military side, be 
part of a solution there, because it is a serious problem.
    Secretary Chao. Well, if I may, as a former Secretary of 
Labor, what we're really talking about is a skills gap, and 
there's a larger issue about a skills gap in our economy. So I 
share your concerns about the pilots and the shortage thereof 
and where we're going to get them in the future, and I'd love 
to work with you on that.
    Senator Wicker. Thank you, ma'am.
    The Chairman. Thank you, Senator Wicker.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Secretary Chao, for being 
here, and thank you for answering questions about the contract 
towers. You can see it's a very hot topic with our colleagues. 
That's because there are 250 contract towers in 46 states, so I 
think just about every part of the country is interested in 
this.
    Given Senator Wicker's question about the value, I would 
assume, then, you would be willing to say that you'll protect 
these contract towers, no matter what?
    Secretary Chao. I can't promise you that now, because under 
the current budgetary process, it's an issue of what's 
available, dollars--is that what you're asking? Am I hearing--
perhaps I didn't hear correctly.
    Senator Cantwell. Yes.
    Secretary Chao. So that's why the proposal of separating 
out air traffic control from the regulatory safety part of FAA 
is to address some of the budgetary issues as well so that this 
new entity will be self-sustaining, it'll be self-financing, 
and it will not be victim to the vagaries of year-to-year 
annual appropriations.
    Senator Cantwell. Are you saying----
    Secretary Chao. But that's good for contract--for the 
contract towers.
    Senator Cantwell. Are you saying that they won't get 
protected unless we do that?
    Secretary Chao. Under the current--you're asking about 
under the current budgetary process?
    Senator Cantwell. Yes.
    Secretary Chao. I'm not saying that I won't protect them. 
I'm just saying I can't guarantee that, because it depends on 
the budget that you give to me and what you ultimately decide.
    Senator Cantwell. OK. Well, anyway, I would hope that you 
would protect them no matter what.
    So on the NextGen system, do you know if the President's 
infrastructure plan supports investment in just NextGen? I hear 
what you were saying this morning about the air traffic 
controller system, but just on NextGen, because, obviously, one 
of the things we struggle with here as a committee is we get 
all the players here, and they sit at that table that you're 
sitting at now, and they debate amongst themselves. I mean, I 
wish we could make them stay there until we got a resolution of 
funding issues. But that's really what is hampering the 
implementation of NextGen. So does the President's 
infrastructure plan include making some investments in NextGen?
    Secretary Chao. Well, the President's infrastructure 
proposal has as a major part of it the separation of the air 
traffic control system from the regulatory safety aspect which 
remains with FAA. So, in fact, the modernization of FAA is the 
cornerstone of the infrastructure project. And, again, there is 
an aviation trust fund there, which we cannot use, even though 
it's got huge surpluses in there, and because it has not been 
appropriated, and there's also the whole issue about financing 
and the budgetary process from year to year and how uncertain 
it is, which impedes the ability of FAA to plan further ahead. 
So this whole issue about funding certainty is tied in with why 
the separation would be good to maintain a more robust air 
traffic control system.
    Senator Cantwell. And I think----
    Secretary Chao. But, again, I don't want to--I'm not here--
I'm here to work with all of you, because I know this is a 
controversial issue. I know there are concerns about it.
    Senator Cantwell. And I think I'm with Senator Nelson when 
he's saying NextGen is paying dividends, and so if we get to 
this point where we don't get there on this discussion, we hope 
that we'll keep making progress on the implementation, just as 
we did under the last extension bill.
    Secretary Chao. Yes, it would.
    Senator Cantwell. Thank you. I have one more question. I 
know it's a little more related to broader freight, but there 
are cargo freight issues, too, at airports. We recently sent 
you a letter about the National Freight and Highway Grant 
Program. Are you expecting to make a second round of freight 
grants this year? You can get back to me if you don't know the 
answer to that.
    Secretary Chao. We hope to--this and other grants have been 
under review because of the new administration. So we hope to 
finish the review quickly and then get these grants out as 
quickly as we can.
    Senator Cantwell. So you think that would happen this year?
    Secretary Chao. I sure hope so.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Cantwell.
    Senator Fischer?

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    Welcome, Madam Secretary. Nice to see you. I think you just 
mentioned about the need to have a longer planning period and a 
longer reauthorization period when it comes, I think, to all 
infrastructure, not just with regards to air service and 
airports, but with all infrastructure. And I hear that from 
stakeholders across Nebraska as well, because it takes a long 
time to plan projects and then get the permitting done and then 
to go through the construction.
    First of all, do you agree with that? And if you do, what 
are you going to do to help us get to that longer planning 
period when it comes to infrastructure?
    Secretary Chao. Well, it certainly would help if it's a 
longer period that the Committee can come to some consensus on. 
If, indeed, the FAA reauthorization is for a longer period of 
time, I think that would alleviate a lot of the--some of the 
pressure.
    Senator Fischer. And as we look at air services, 
specifically, and the access that's there, I know you have 
mentioned the needs in rural America, and it's very critical 
that we have that access to our communities and to families and 
to businesses so that they can take advantage of opportunities 
that come with having air service. I am concerned about the 
elimination of the congressional appropriations for Essential 
Air Services in the President's budget request.
    Can you tell us what the Administration plans to do, what 
their intentions are concerning rural communities? How are you 
going to ensure that these rural areas in America still have 
that access to air services? We have seven rural communities in 
Nebraska, and, as you know, we're a large state and sparsely 
populated. If rural America is going to be able to grow and 
thrive, Essential Air Services is a big part of that. So what 
are the intentions of your department with regard to that?
    Secretary Chao. It is unfortunate at the EAS Program was 
restructured the way it is. I am working within the 
Administration to see how we can address that, and I am hopeful 
that I will have a partial solution to this pretty shortly.
    Senator Fischer. I would be happy to work with you on that 
as well, and I know there are many members of this Committee 
where the Essential Air Service plays a big part in keeping 
areas in our states connected and continuing to grow and have 
opportunities for economic growth. So I hope that you feel free 
to reach out to me and other members of this committee to try 
and work through the problems that I see with the request 
that's come down from the Administration.
    I am pleased to hear that the President has talked about 
the importance of regulatory reform as a way that we can 
address infrastructure investment and also freight movement 
across this country. Sometimes when we look at Federal 
regulations, they're pretty prescriptive, where the government 
is going to dictate to industry how things are going to happen, 
and I try to look for ways that we can look at performance-
based standards so that we can involve stakeholders and really 
develop more innovative methods for achieving a regulatory goal 
that is put out there.
    Do you agree that performance-based standards could 
facilitate innovative compliance and safety technologies, and, 
if so, has the Department of Transportation reviewed how it 
could move away from these more prescriptive regulations to a 
more performance-based series?
    Secretary Chao. We are in total agreement on that, and we 
hope to move in that direction, yes.
    Senator Fischer. Do you have any examples of specific ways 
you're looking at to address some of those right now that you 
could share with us?
    Secretary Chao. There was an Executive Order from the White 
House dated, I believe, February 28, and it was an effort to 
look at all of the regulations from a status quo point of view 
that have been just issued. As you all know, everything was 
frozen for 60 days, and we're looking at that.
    And then as part of the infrastructure project proposal, 
we're looking also at the permitting side, and we're going to 
announce some of that--announce may be too ambitious a word, 
but there will be a day devoted to how we can work with some of 
the permitting issues. For example--and I don't want to go on 
for too long--some of these permitting issues are--we all 
respect the environment. We all want to protect the 
environment. But some of these permitting issues occur 
sequentially. Does it not make sense to have some of these 
permitting procedures occur concurrently? So very simple issues 
like that can make a big difference.
    So we're, in fact, having a gathering of Mayors and 
Governors at the Department of Transportation this Friday on 
this particular issue, and we hope to have some further 
consultation, dialog, and discussion about it as well.
    Senator Fischer. Thank you very much, and I would just add 
my concern about the contract towers and looking for a way that 
we can continue that.
    Thank you.
    The Chairman. Thank you, Senator Fischer.
    Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    Welcome back, Madam Secretary. At the outset, I want to 
thank my colleague, Senator Moran, for working with me during a 
previous session on the contract tower issue during the 
Continuing Resolution consideration, and we stated then, and I 
will restate now my commitment to working across the aisle on 
this very important issue with my colleagues. A seemingly minor 
issue like this one has vast ramifications for our country, as 
you well know.
    I have been discouraged, as many of my colleagues have 
been, by the lag in responses to some of our inquiries. There 
was a report in POLITICO very recently that officials from the 
White House were telling agency officials to ignore oversight 
requests from Democratic members of this Congress. Do you know 
of any such contacts, and have you had such a discussion with 
White House officials, Madam Secretary?
    Secretary Chao. Well, first of all, I think you all know 
that based on my reputation, I have always worked very hard to 
ensure that whatever department I am leading, that it would be 
working very well with both sides of the aisle on issues. We 
pride ourselves on being very responsive, and I have a history 
of working collaboratively with members of Congress. Having 
said that----
    Senator Blumenthal. Well, let me ask you, then--and I 
hesitate to interrupt you, but my time is limited. I wrote to 
you 2 months ago, just days after the now infamous incident 
involving United Airlines, demanding an investigation into the 
issue that was raised there. DOT said publicly it was reviewing 
that issue, and I asked for answers about the airline 
employees' knowledge of passenger rights. In fact, I have 
helped to lead the effort to improve those rights through a new 
Passenger Bill of Rights, which I hope you would support. But 
in the meantime, I've received no response to my inquiry. What 
is the status of that investigation?
    Secretary Chao. I'm sorry you did not receive a response. 
I'm not aware of that, but I will certainly take a look. But I 
was going to say, having said what I just said, it's actually 
not unusual for administrations--every administration, 
including the previous administration--that any oversight 
responses be coordinated through the Chairman and the Ranking 
of each committee. So that's separate from like ordinary kind 
of correspondence. Oversight is a bit different, and this has 
always been the policy through all administrations.
    Senator Blumenthal. I'm very skeptical, I have to say with 
all due respect, about the plan that has been advanced that 
would provide for so-called reform in a system that has seen no 
fatality on a commercial plane since 2009. I am puzzled that 
the Administration wants to break apart the FAA and put the 
critical safety oversight role, air traffic control, into the 
hands of an unknown, untested entity that, in effect, will be 
controlled by the airlines, particularly since nearly 40,000 
people are expected to die on our roads every year, and the 
Administration has yet to propose a specific set of measures to 
build new roads, rails, bridges, and other infrastructure. In 
fact, during the campaign, President Trump promised to replace 
our, ``obsolete,'' rails and tunnels with the, ``gleaming,'' 
infrastructure our country deserves.
    So I am wondering why the priority on breaking apart the 
FAA when we have yet to see any specifics--in fact, a cut in 
the investment on infrastructure in the 2017 budget. I wonder 
if you could explain what the impacts will be of the cuts that 
are contemplated, for example, in the TIGER program and other 
programs within the jurisdiction of your department.
    Secretary Chao. The separation of FAA--air traffic control 
from the FAA regulatory safety aspect is a cornerstone of the 
infrastructure project proposal. The current budget of 2018 
does not reflect the priorities of the new infrastructure 
proposal. So the projects that were cut in the 2018 budget, in 
fact, will be realigned to newer priorities in the 
infrastructure proposal.
    Let me also say that----
    Senator Blumenthal. Are you saying that TIGER will be fully 
funded and Amtrak will be fully funded, in fact, increased in--
--
    Secretary Chao. It will be a different kind of funding. As 
was announced, the infrastructure proposal is going to be a 
trillion dollars over 10 years. It will have $200 billion of 
direct Federal funding, which is far higher than the past 
highway bill of December 2015, and it will be leveraged to the 
$1 trillion through public-private partnerships and possible 
sale of Government assets.
    Senator Blumenthal. And when will we see the specifics?
    Secretary Chao. Hopefully, soon. We came out with 
principles, and so we hope to have the legislative language, 
depending on the congressional schedule, probably third quarter 
of this year.
    Senator Blumenthal. My time has expired.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Moran?

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you.
    Madam Secretary, thank you for your presence today.
    I appreciate Senator Blumenthal recollecting the efforts to 
make certain the contract tower program was funded. That 
occurred back in 2013. I would remain skeptical, Madam 
Secretary, that rural America and, particularly, the contract 
tower program would be more secure with privatization of air 
traffic control and run by a Board of 13 people.
    Based upon my experience in dealing with this issue in the 
Senate, as I recall, to restore the funding for that contract 
tower program, there were 26 Democrats and 25 Republicans who 
joined together in offering legislation and an amendment on the 
Senate floor. So a majority of the Senate, in fact, a majority 
of both Republicans and Democrats in the Senate put the efforts 
together to make sure contract towers were supported.
    Secretary Chao. Yes.
    Senator Moran. And I would put that--I would put the risk 
of the survival of contract towers in the hands of Congress 
much more easily than I would put it in the hands of a board of 
13 people making decisions nationwide. I think one of the 
problems with privatization is the removal of Congress from 
having a role to play. And by rural, what I think I mean by 
that is almost any place, except for the largest cities in our 
country, is rural. So I would put my eggs in the basket of 
asking Congress to be supportive of rural programs much more 
readily than I would put my eggs in the basket of a 13-member 
private board.
    I want to comment on your statement about a longer--to 
Senator Fischer's question--a longer reauthorization is a good 
thing. I share that view, and I was very disappointed that we 
were unable to ultimately get a long-term FAA reauthorization 
bill passed through the Congress last time. But the reason that 
we were unable to do that is this topic that now is in front of 
us again, privatization of air traffic control.
    So, Madam Secretary, if it becomes clear that the votes are 
not present in this committee or in the United States Senate, 
will you then help us pass an FAA long-term reauthorization 
without the privatization provisions?
    Secretary Chao. I wish I could answer that question, but as 
you well know, I cannot without consultation from the 
Administration and the White House.
    Senator Moran. Well, perhaps I'm only making a point, and 
perhaps it was a rhetorical question. But the issue that now 
faces us is the same one that faced us the last time, and, in 
fact, with the Administration's support of this concept, the 
chances of getting a long-term FAA reauthorization, in my view, 
have now been diminished. So at some point in time, the 
decision needs to be made by you and others in the 
administration--is our priority a long-term FAA 
reauthorization, or is it privatization of air traffic control, 
because those two things may be mutually exclusive.
    And then I want to thank you for responding to our February 
letter that Senator Klobuchar and I wrote you asking about your 
assurances that--your comments in your confirmation hearing 
about reaching a national consensus on this topic. We received 
your response last night, and I thank you for answering that 
letter. I'm not sure there's a national consensus, but I know 
the effort was made to seek input from a variety of interested 
parties when it comes to this topic.
    Finally, on a different topic, let me ask you about 
spectrum allocation. Madam Secretary, one of the significant 
legislative accomplishments that Senator Udall and I worked on 
was to expand the spectrum reallocation fund to include a $500 
million pool for research and development. I'm pleased to see 
that the FAA recently announced that it is taking advantage of 
that pool to investigate whether it can relinquish some of the 
1,300 to 1,350 megahertz band. That's encouraging. It will free 
up more spectrum, if you reach that conclusion, to deploy next-
generation wireless networks, 5G.
    Could you bring me up to speed on your thoughts and the 
status of that effort to that investigation within your 
department?
    Secretary Chao. The investigation is extraordinarily 
complex, and I don't have a good answer for you today, but I 
will get one for you.
    Senator Moran. Very good. Madam Secretary, thank you again.
    The Chairman. Thank you, Senator Moran.
    I now have in order of appearance--Senator Schatz is no 
longer here--Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    Let me first, Secretary Chao, just mention--we've talked a 
lot about--there are other issues other than just the 
privatization issue that's out there, and I think you've--I 
have several questions that should be asked. I want to make one 
comment, though, about contract towers. I agree with the 
comments that Senator Moran made.
    The major request that I have of you is if this becomes a 
discussion in the Administration, I'd like to be a part of that 
discussion. We've had very good successes with our contract 
towers, and we would have a serious problem without them. Does 
that sound reasonable to you?
    Secretary Chao. Yes.
    Senator Inhofe. OK. On the issue of the privatization, I 
think almost every question I could ask you've already 
answered. But I would like to know--is there just a short 
answer to a specific reason why NextGen would be better served 
under the system that you're proposing? Is there a short answer 
to that? Because I have not yet heard one that really makes a 
lot of sense to me.
    Secretary Chao. We can procure new equipment faster.
    Senator Inhofe. That's a short answer. All right.
    Secretary Chao. Because the government procurement rules 
are very bureaucratic. By the time that the Federal Government 
gets the equipment, many times it's not state-of-the-art modern 
technology, just because of the lengthy procurement process.
    Senator Inhofe. All right. On Monday--and I didn't attend 
it, but I did read what the President was saying about the 
proposal. The one thing that was not mentioned was having to do 
with user fees. One thing about the House bill was it 
specifically excluded user fees in certain areas, starting with 
general aviation. Then it gets to be a little bit more 
confusing when it goes up from there because of the quasi 
general aviation organizations that are out there.
    So I didn't--it was not directly excluded in the 
presentation that you folks had on Monday. Any comments about 
that?
    Secretary Chao. Your assessment is correct. As I mentioned, 
we look forward to working with the Committee and Congress, and 
this is a point that needs to be discussed. We are willing to 
do so.
    Senator Inhofe. All right. Now, the next thing I want to 
bring up is we have talked to your staff quite a bit about a 
proposal that I have that is--we refer to as the Flight Act, 
and what this does is give assurance to general aviation 
airports, those airports that receive $150,000 a year, to do a 
number of things, including extending that amount from 6 to 7 
years, and then also assuring that if there is a surplus in 
those accounts that they be reserved for general aviation 
airports as opposed to others. That's one provision in that.
    Another provision--I chaired the Environment and Public 
Works Committee when we had the MAP-21 and the FAST Act, and 
some of the things that we successfully did, in concert, I 
might add, with the ranking member, Barbara Boxer, was to have 
some of the environmental streamlines put into effect that I 
think we could do, and we could emulate, and so I've done that 
in this legislation.
    We have also--well, actually, I don't have the time to get 
into a lot of detail on this. But have you had a chance to 
review this, the Flight Act, with your staff?
    Secretary Chao. We have. I'm interested in, specifically, 
what you have in mind. So I look--we can have an offline 
discussion after this hearing.
    Senator Inhofe. That would be good. Senator Booker and I 
were interested in and have actually worked together on some of 
the drone legislation that we've had in the past, and we've 
been successful. We've gotten language in there that will allow 
drones in the non-line of sight environment to take care of 
problems that are--like pipelines and other areas that have 
been successful. And while the FAA has established a process to 
address such applications, such non-line of sight applications, 
the FAA has approved very few of them. I am concerned about 
this.
    Is there anything that you can think of that is causing the 
FAA to be a lot slower than they should be in this respect on 
drones?
    Secretary Chao. I think they are trying to be very 
deliberative, very careful, and they're trying to take into 
account all the different viewpoints. But yours and Senator 
Booker's concerns about this issue is registered with me today, 
and I will go back to FAA and talk with them further.
    Senator Inhofe. That's good. I appreciate that, and maybe 
you can let us know what the response is.
    Thank you very much.
    Senator Nelson. Mr. Chairman, would the Senator yield for a 
point of clarification? The FAA is exempt from the Federal 
procurement rules. This was set in the 1990s. So in your 
examination of the procurement rules and whether or not there 
are delays, I point that out. You want to look for the FAA's 
specific procurement rules.
    Senator Inhofe. Well, the bottom line is they're dragging 
their feet, and it should be done much more expeditiously.
    The Chairman. Thank you, Senator Inhofe.
    Next up is--he has returned--Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Thank you, Secretary Chao, for being here. It seems that 
recently, almost every week, there has been a new episode of 
passengers on airplanes being treated unfairly, and it's 
obviously created a number of PR debacles for the airlines. 
But, more importantly, every instance is an example of airlines 
violating the trust that their customers have put in them with 
their dollars.
    I'd like to get your perspective on what you think the 
Department of Transportation can do and what we ought to 
consider as we're doing FAA reauthorization. I know this is 
sort of a delicate space, because this is private enterprise 
and we don't want to be too prescriptive, especially when 
people are entering into a contract. But from my standpoint, it 
is difficult to understand this contract is a meeting of the 
minds when someone clicks agree on Expedia or on an airline's 
website.
    So I'd like your perspective on what you think ought to be 
done, what should be done, especially with your department?
    Secretary Chao. In light of what has happened in recent 
months, we obviously have kept very close track with the United 
incident, and also we have created a whole new section of the 
DOT website that informs the traveling public what their rights 
are as passengers and what they can expect and demand in terms 
of lost luggage, overbooking, and delays of over a certain 
period of time. So we have tried to help the traveling public 
to know what their rights are, and that is right on our 
website.
    I'm not quite so sure what the protocol is, but I'm going 
to ask this--make this point. MAP-21 did, indeed, supposedly 
streamline government procurement, but having done all of that, 
the procurement of FAA equipment is still a problem. We are 
still dealing with vacuum tubes and paper strips. There's such 
a long gap of what we need to do. So without being 
disrespectful, I just wanted to kind of respond to the ranking 
on that, that despite MAP-21 and AIR-20, there has not been 
that much improvement, unfortunately.
    Senator Schatz. Thank you, Madam Secretary. I wanted to 
talk to you about drones and drone registration. When Mr. Earl 
Lawrence testified in front of the Committee on March 15 of 
this year, he shared that more than 750,000 small UAS owners 
have registered their drones. Congress is happy about this 
accomplishment in relatively a short amount of time, and we're 
looking forward to getting to 100 percent.
    But there's a wrinkle now, because the U.S. Court of 
Appeals in the D.C. Circuit ruled that the FAA's regulation 
requiring drone registration for recreational use was illegal. 
So my basic question is what are we going to do next?
    Secretary Chao. We have not yet decided. The decision just 
came out from the courts a few days ago, so we are in the 
process of reviewing and evaluating what our next step would 
be, and we look forward--if you have specific viewpoints, we'd 
be pleased to work with you on that.
    Senator Schatz. And if you could consider this a request 
for technical assistance on the question of whether or not we 
need to make any statutory changes----
    Secretary Chao. I understand.
    Senator Schatz.--to clarify. You know, drones are exciting, 
from a civil defense perspective, from a recreational 
perspective. There are lots of great opportunities. But there 
are new issues here, and I think it's important for us to make 
policy and not devolve all of our authority to the Executive 
Branch in this instance. And since the authorization bill is a 
live vehicle, it's an opportunity for us to make policy on a 
bipartisan basis.
    Senator Fischer mentioned Essential Air Service, and I 
think I can speak for nearly everybody on the Committee when I 
say that the proposed reduction and funding from $175 million 
to $108 million in the Fiscal Year 2018 budget is alarming. I 
would just like to get your reassurance that you understand how 
important this is to the Committee and that we're going to work 
to make sure that Essential Air Service is sort of part of the 
basic promise that the Department of Transportation makes to 
all of our constituents.
    Secretary Chao. I certainly do. The budget was really put 
together in the beginning part of the Administration when many 
key members were absent.
    Senator Schatz. Thank you.
    The Chairman. Thank you, Senator Schatz.
    Next up is Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    We have a situation, Madam Secretary, where airlines are 
overcharging captive passengers just because they need to 
change or cancel their flight or check a couple of bags, and 
it's just not fair to these passengers across the country. 
They're kind of just captured. But today, several airlines 
actually charge $200 to change or cancel, and that might 
actually be greater than the value of the ticket which the 
person actually purchased.
    On top of that, many are charging as much as $25 for the 
first checked bag, $35 for the second bag. So that could be 
$120 for a round trip for that bag from one destination to 
another and back, and the fee epidemic is just growing--carry-
on bags, print boarding passes, blankets--and the reason that 
they can do it is that they're not operating from the most part 
in competitive situations. Four airlines now control 85 percent 
of the traffic in the skies, and an analysis from the U.S. 
Travel Association found that 74 airports are served by only 
one airline, and 155 airports are dominated by one carrier 
controlling over 50 percent of the seat capacity.
    The result is that the airlines reap $4.2 billion in 
baggage fees, $2.9 billion in changing or cancellation fees 
just last year, and passengers are just demanding some relief. 
They're put in situations where they can be tipped upside down 
at the desk. So what can the Department of Transportation do in 
order to give relief to these passengers?
    Secretary Chao. Well, as I mentioned, we try to give 
people--we have posted on our website a Passenger Bill of 
Rights. But these are frustrating issues. We all travel. We've 
all experienced it. So I look forward to working with you if 
you have additional ideas about that.
    Senator Markey. Well, that's what I'm afraid of. You can 
only give people notice that they don't have any rights, and I 
think as we do this FAA reauthorization, Senator Blumenthal and 
I are intending on ensuring that we make an amendment that 
gives passengers rights, gives passengers protections. It's the 
Fair Fees Act, but we'll make it as an amendment to ensure that 
the fees are fair and reasonable, proportionate to the cost of 
the service which is being provided. I think we need to debate 
that, because notice that you have no rights is----
    Secretary Chao. No, we're not saying that. We actually do 
try to help passengers, and we put the Passengers Bill of 
Rights on. But these are issues that do emerge, and we really 
can't do very much about pricing. But we want to work with you 
as you go forward in seeking solutions.
    Senator Markey. That's the point I'm making. We're going to 
need to pass legislation so there's a definition of what is 
fair, what is reasonable, what is proportionate.
    Over on IT, the whole world is operating on IT right now, 
but Southwest Airlines and Delta Airlines experienced 
technology issues that resulted in thousands of flight 
cancellations across the country. Last summer, earlier this 
year, Delta and United Airlines had two large outages within a 
week of one another, causing even more flight disruptions.
    The airlines' IT systems still haven't been brought into 
the 21st century, and we've also found that airlines have not 
fulfilled their obligations to take care of the stranded 
passengers. When there are cancellations and delays, many 
airlines do not have inter-airline agreements in place, which 
allow airlines to reboot stranded passengers on another airline 
at no additional cost to the consumer.
    I think it's going to be critical for us to deal with this 
issue so that the airlines understand that we believe it's 
critical for them to upgrade their IT services. In many 
instances, they don't even notify passengers that they have a 
right to compensation because of the delay or the cancellation 
of flights. They're not expressly notified.
    Can the Department help on that issue to make sure that the 
airlines give----
    Secretary Chao. Passengers are supposed to be told that 
they have a right to compensation. You may have heard that a 
number of airlines in response to the recent incident on United 
have raised the compensation, for example, for overbooking to 
$10,000.
    Senator Markey. So from my perspective, when I look at the 
airlines and their own IT systems right now--and they need to 
be upgraded dramatically in order to deal with all these 
issues--and then I look at a proposal to give the airlines on a 
nonprofit board the preponderance of the control of that board, 
to move us back to the 20th century, I think--if they can't, in 
other words, upgrade their own IT systems, if they can't figure 
out how to do it for their own passengers, then to give them, 
you know, the key seats on this kind of a board, it seems to 
me, given the record of safety of the existing system, would 
be, from my perspective, sequentially wrong. First, they should 
prove that they can do all of these things for their own 
passengers before giving them responsibility for taking on all 
of the larger now governmentally controlled responsibilities.
    We thank you for your service, Madam Secretary, to our 
country. We're going to have a big debate here on this FAA 
authorization.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    I have Senator Hassan up next.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chairman and ranking member.
    Welcome, Secretary Chao. It's good to see you.
    As you know, earlier this year, there was a truly 
unfortunate incident in which United Airlines forcibly removed 
a passenger from one of its aircraft, bringing new attention to 
the lack of consumer protections that exist in the airline 
industry. The United incident does not represent a one-time 
situation of mistreatment of passengers, and, in fact, there 
have been several incidents in the brief period of time between 
the United incident and today's hearing. Just last year, DOT 
received 17,904 complaints across the industry, and those were 
just the cases that were reported.
    I'm sure that you join my colleagues and me in finding 
these incidents unacceptable, and it's why I introduced the 
Tickets Act with several of my colleagues. This legislation 
will improve transparency for consumers, review overbooking 
policies, guarantee paying customers have a right to fly, and 
makes other common sense reforms.
    Does the Department of Transportation share my concerns and 
the concerns of granite staters and people across the country 
that more needs to be done to ensure better flying conditions 
for consumers? And, specifically, how does your team plan to 
address this?
    Secretary Chao. Of course, we're very much concerned, and 
what has happened, obviously, is inexcusable. As mentioned, we 
have alerted all the airlines of what their responsibilities 
are, and we have posted a Passengers Bill of Rights so that 
individual passengers, travelers, can access the website. And 
as we go forward, we want to make sure, also, that the airlines 
understand what their responsibilities are, and it's to their 
own best interest to treat passengers with respect and with 
courtesy. So I think that effort is ongoing, and the airlines 
need to take that responsibility on themselves.
    Senator Hassan. Thank you. And will you and your staff work 
with those of us who are sponsoring the bill to look at the 
elements of the bill and see if it makes sense to incorporate 
them into the FAA reauthorization?
    Secretary Chao. Of course.
    Senator Hassan. Thank you. Last Congress, the House of 
Representatives put forth a proposal to privatize the air 
traffic control system and changed the way our nation's 
airspace is governed. Senators on both sides of the aisle have 
raised questions about how and whether this plan might work. As 
we assess changes to the current air traffic control system, we 
have to obviously make sure that safety remains paramount, and 
we also have to be mindful of the disparate impact 
privatization could have on smaller and more rural communities 
like the ones that I represent in my state of New Hampshire.
    In March of this year, over 115 mayors, including Mayor 
Kendall Lane of Keene, New Hampshire, wrote to the leadership 
of this Committee expressing concerns, specifically noting that 
they are concerned that commercial airlines would be 
essentially governing themselves, which would devastate rural 
and mid-size communities where it's harder to attract robust 
airline service.
    So, Secretary Chao, what is the President's plan, if any, 
to safeguard rural communities should major changes take place 
to our air traffic control system?
    Secretary Chao. I want to make it very clear--first of all, 
thank you for the question. I want to make it very clear, 
because I think there's a lot of concern about this, that this 
new air traffic control system, if it were to be taken away 
from FAA so that the inherent conflict of interest, which 
currently exists, which is that we have an air traffic control 
operating system that is regulating itself on safety--that is 
an intrinsic conflict of interest. We need to separate out the 
safety function from the operational function.
    Number two, this new air traffic control system is not 
going to be controlled by airlines. What the President's 
proposal merely says is that, number one, there's going to be a 
new governing structure and a new financing structure. The 
governance structure will comprise of 13 members, and only two 
seats are available for airlines. The rest are going to be 
filled by airports, labor groups, labor representatives. 
General aviation will have at least two. So it will be the 
whole stakeholder group, but their responsibility is not to 
look after their parochial interests, but to look after the 
interests of the whole air traffic control system. So rural 
America is very much a part of that.
    We're very much aware that the members of this Committee 
come primarily from rural states, so it is an issue that we are 
very cognizant of. And as we go forward--we've now released 
this proposal--we look forward to working with the members of 
this Committee and the Senate and the Congress on this issue.
    Senator Hassan. Thank you. And I think it would be very 
helpful if we could include Mayors and Governors in that 
discussion, too.
    Secretary Chao. We are actually meeting with them this 
Friday.
    Senator Hassan. Excellent. Thank you.
    The Chairman. Thank you, Senator Hassan.
    Senator Heller?

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you.
    Secretary Chao, thank you for being here and taking time 
from your busy schedule to answer some of our questions. Can I 
change directions for just a minute and talk about drones? It's 
an issue that I've been working on for the last couple of 
years, and it's important to the state of Nevada because it's 
one of the six nationally recognized unmanned aircraft systems 
test sites, and you're probably familiar with that.
    I think our state is a perfect place for commercial 
testing, and I think it's proven so, mostly because of the 
state's expertise, the expanse of air and space corridors, the 
predictable climate in Nevada--we have 300 days of sun--and 
there are low startup and operational costs. So I've worked 
with my colleagues during the last Congress from states' other 
sites, and that extended the FAA support for these sites 
through 2019.
    Anyway, unfortunately, it's my opinion that the previous 
administration did not--their FAA did not utilize the test 
sites to the best of their capabilities, and I think there's a 
lot more work to be done. So I guess my question for you is to 
ask you if you support extending the authorization and these 
sites beyond 2019?
    Secretary Chao. That is a question which I did not 
anticipate, and so I will go back and take a look at that 
issue. There's a folder on my table, but I did not--didn't 
think I was going to be asked this. I will take a look at that. 
Thank you.
    Senator Heller. OK. I'll anticipate a follow-up, and thank 
you for that.
    [The information referred to follows:]

    The FAA would support continued use of the Test Sites. The FAA's 
ultimate goal is to fully integrate unmanned aircraft system technology 
into the National Airspace System (NAS) so that drones operate 
harmoniously, side-by-side with manned aircraft. Since 2013, the Test 
Sites have supported UAS integration by providing an avenue for the UAS 
industry and stakeholder community to conduct more advanced UAS 
research and operational concept validation. When the FAA's applied 
research studies require validation flight tests or related test site 
capabilities, the FAA has used the services of the seven designated 
Test Sites, as was the case for 2206 UAS airport detection study. In 
addition, NASA is using the Test Sites in support of its UAS UTM and 
UAS in the NAS test projects.

    Senator Heller. One of the reasons I think that we need the 
extension is the ability to conduct these tests beyond the line 
of sight. Right now, they're limited. They have to be able to 
see the drone, and, actually, it's prohibitive to testing these 
things if you're only limited to line of sight. In fact, some 
of the commercial companies that are being tested right now are 
saying that if they can't go beyond the line of sight that 
they'll have to do their testing overseas. So that's the 
concern that we have, and I just wanted to see if you had any 
insight or do you support any testing that would be done that 
would be outside the line of sight?
    Secretary Chao. I'm cognizant of the issue. I just hadn't 
linked the two together in terms of the testing site. The other 
issue, of course, is having drones fly over the heads of 
populations.
    Senator Heller. Of course.
    Secretary Chao. So we are looking at those two issues, and 
we hope to--we'll work with you on that. But we're very 
concerned, and we hope to come out with something that is very 
commonsensical.
    Senator Heller. As you're well aware, Madam Secretary, 
there are a lot of drones out there. There are a lot of 
commercial drones. You can walk into Costco tomorrow and buy 
yourself a drone and start flying this. One of my sons--it's 
just the latest and greatest, and he wanted to see how these 
things worked, and now he's learning the restrictions of what 
you can and can't do with one of these mechanisms.
    But I think there are some real possibilities in the 
future, and I just want to make sure that Nevada stays in the 
forefront of this particular issue when it comes to commercial 
use, and being able to work with your office on this particular 
issue does mean a lot to our state.
    Secretary Chao. That would be great. There's actually a 
difference between the commercial and the hobbyist. Most 
commercial operators understand very well what the rules are. 
It's much more the hobbyist and----
    Senator Heller. Yes, and he's a hobbyist.
    Secretary Chao.--and because of the recent court action as 
well that just came out the last 2 days, we're reviewing this 
whole issue about how to deal with hobbyists and their 
concerns.
    Senator Heller. I'd like to work with you on that because, 
obviously, he has an interest, and I think there are a group of 
millennials out there that have the same interest and need to 
be aware and educated about the use of these things and 
practicality of it, what they can and can't do. I do know that 
they're restricted around airports. In fact, I was with him one 
time as he was flying it, and it just stopped, and it's 
programmed in it to every airport in America how close you can 
get to it. That drone will just stop and hover and won't 
continue to move forward. So it's fascinating to see that the 
technology is already there for the necessary protections 
around corridors that perhaps are a little bit more sensitive 
than others.
    Secretary Chao. I understand, and we look forward to 
working with you.
    Senator Heller. Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Heller.
    Senator Peters?

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for being here today. It's 
always good to see you and we appreciate all the work you're 
doing in the auto industry as well as what we're doing here 
with the FAA.
    I want to start off before I ask a couple of specific 
questions and just add my comments to what I think is 
incredibly important for my state and, clearly, is important to 
other senators, and that deals with rural airports. Michigan, 
of course, is a very industrialized state and we're very proud 
of our auto industry, but we're also an incredibly rural state. 
In fact, I believe we have more Essential Air--we're second in 
terms of the number of Essential Air Service airports in the 
country. I know you've responded to several questions related 
to that.
    But it really goes back also, I think, to the privatization 
of air traffic control, and in your opening comments, you 
talked about that type of privatization would actually help 
rural airports, if I get your testimony right, that it'll be 
able to preserve contract towers that may be in some of the 
smaller airports. There won't be any sort of movement away from 
regional airports--or, excuse me, rural airports into larger 
regional airports.
    But it just seems inconsistent that we have a budget that 
was put forward by the President to basically cut Essential Air 
Service, which is truly essential in these small communities. 
Without airplane service, it's difficult to attract any kind of 
business, to have economic development. It is a major negative 
for the rural areas of our country.
    And then if we are moving to a privatized system of air 
traffic control that's basically run by the airlines, who are 
profit-making entities--the reason they don't serve these rural 
areas is because they don't make money. It's just--the 
economics don't work, although they are essential for a variety 
of other public purpose reasons.
    How do you square that? I mean, how do you square that the 
Administration wants to cut Essential Air Services and yet says 
that actually privatizing the air traffic control system will 
help rural airports by putting the major airlines that don't 
make money in rural airports--help me--walk through that for 
me.
    Secretary Chao. If I may, I would say these are actually 
two separate issues. But having said that, let me assure you 
that the interest and the concerns of rural America is one that 
I share. The Essential Air Service--that was part of the budget 
of the Fiscal Year 2018. I can defend it. But I will say that 
that decision was made when a lot of people were--when the 
Administration was just staffing up, number one.
    On the issue about rural America, we are very concerned 
about rural America, and we want to--and some of the issues, 
for example, with contract towers, is actually an issue of 
budgeting uncertainty. If you take it out of the Federal 
Government, the budgeting certainty will actually benefit rural 
America.
    The third issue is the new air traffic control system--the 
new air traffic control structure that we are suggesting 
through the Administration's proposal is not one that's 
controlled by airlines. There is a Board of Directors of 13 
people, and only two seats of the 13 are to airlines. The rest 
are to airports, to labor, to advocates, and to other 
stakeholders. So this is not controlled by the airlines, and I 
think that's a very important----
    Senator Peters. Well, we'll have to--and I appreciate you 
bringing that out, but we'll wait to see what the actual 
legislation states to have a fuller discussion about this. So I 
appreciate that, Madam Secretary.
    But with the recent attacks at airports in Fort Lauderdale 
and Brussels, it's clear that we need to do more to protect 
airports and the traveling public from attacks. However, I've 
heard from airports in my state that they're frustrated that 
the FAA and the TSA can't agree who is responsible to help 
airports meet their security needs, and this finger pointing is 
putting the traveling public at risk and is, quite frankly, 
unacceptable.
    One solution that I have been working on would provide 
airports greater flexibility to use passenger facility charges 
to improve their security infrastructure. I know that for 
airports in my state, if money were no object and they had 
greater flexibility with their PFCs, they would already be 
investing in various public safety initiatives such as 
ballistic protective podiums and permanent force protection 
barriers along with curbside drop-off to protect from vehicle-
borne attacks like the one we tragically saw in London 
recently. Additionally, we should look at allowing, I believe, 
Airport Improvement Program funding to be used for airside 
perimeter CCTV systems.
    Just to your sense, does that make some sense to you, that 
we look to provide greater flexibility for our airports to 
provide the type of infrastructure necessary to protect 
passengers going through them?
    Secretary Chao. I think security is very important, 
obviously. But so much of this with the passenger facility 
charge is really up to the Congress.
    Senator Peters. Great. Thank you.
    The Chairman. Thank you, Senator Peters.
    Next up is Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, Secretary Chao, for your time and testimony 
today. I truly do appreciate the opportunity.
    To Senator Peters, last Congress, this Commerce Committee 
passed a bill called the Screen Fast Act. However long it took 
somebody to come up with that acronym, I don't know, but the 
Screen Fast Act. But I would encourage, of course, the FAA and 
the TSA, obviously in two different departments, to continue 
their work together to implement the Screen Fast Act and the 
opportunities it has to develop new emerging technologies in 
how we make sure that our passengers are secure, how our 
airports are secure, because I do think there are some great, 
sort of, greenfield opportunities for innovative security 
options under the Screen Fast Act that the Commerce Committee 
passed. So the opportunities are there for the FAA and TSA to 
continue to work together on those new technologies.
    Secretary Chao, in October 2015, the Northern Colorado 
Regional Airport, working with the Colorado Department of 
Transportation, put forward and was selected by the FAA as a 
site for a remote tower pilot program. The goal of the program 
is to demonstrate that the airspace around an airport can be 
managed using innovative 21st century technologies and not 
necessarily depending on traditional towers. So one of my goals 
for the FAA reauthorization would be to include language that 
would allow airports to use remote towers, allowing them to be 
eligible for Airport Improvement Program funds or inclusion in 
the Contract Tower Program if the technology is certified by 
the FAA?
    So my question would be if you would support remote towers 
being eligible for AIP funds or inclusion in the Contract Tower 
Program if the technology is certified by the FAA.
    Secretary Chao. Yes.
    Senator Gardner. Thank you very much for that. And the 
other question, of course, is another issue dealing with Rocky 
Mountain Airport and Denver International Airport land uses. 
Over the past few years, regulatory challenges have been 
related to land use decisions making it difficult for these 
airports to operate. In Jefferson County, Colorado, they've 
been attempting to get final FAA approval to move forward with 
non-Federal private Jefferson Parkway. It's a non-Federal 
private Jefferson Parkway near the Rocky Mountain Airport. The 
Parkway is the final piece of the Denver Beltway that would go 
around the metropolitan area, obviously, a very critical 
transportation need. Corridors in the region have significant 
congestion challenges, and this would help alleviate that.
    FAA was first requested by Jefferson County for approval of 
the right-of-way near Rocky Mountain Airport in 2013. It's my 
understanding that the FAA is requiring the county to undertake 
a multi-million-dollar environmental review of the Parkway 
outside of the airport property, even though the Parkway 
alignment has already been the subject of a $15 million 
environmental study. So there's a study that has already been 
done for $15 million, and the FAA is requiring another one.
    In March of this year, I joined with Senator Bennet, my 
colleague from Colorado, in sending a letter to the FAA urging 
expeditious consideration of the situation to resolve it as 
quickly as possible. So given the Administration's goals of 
expedited approval for key transportation projects, would you 
commit to me to reviewing the Jefferson Parkway, Rocky Mountain 
Airport situation and reporting back to my office?
    Secretary Chao. Yes, I'd be pleased to.
    Senator Gardner. Thank you, Secretary. And related to those 
land use issues, Denver International Airport, one of the 
largest airports in the country, has been pursuing initiatives 
to construct a key infrastructure project to develop its non-
aeronautical land use to raise additional revenue for 
reinvestment. Unfortunately, they have consistently run into 
red tape at the Federal level with the FAA that increases the 
cost and prolongs timelines for construction completion.
    Do you think there are opportunities to eliminate or reform 
these kinds of burdensome regulations that can hamper this type 
of redevelopment and reinvestment? And, if so, could you help 
describe some of the steps the Department is taking to 
eliminate some of this red tape?
    Secretary Chao. Yes, we are. We are working on addressing 
the permitting aspect of the infrastructure proposal, because 
we have talked to many people in the private sector, and they 
are--many are very interested in helping to finance the 
infrastructure, public infrastructure. But in certain states, 
they are actually discriminated against and unable to 
participate in infrastructure needs, so that's another issue 
that you did not specifically ask about. But on the permitting, 
we are at work on that.
    One example of how we can perhaps ease the permitting 
process without, of course, compromising any environmental 
concerns is, if some procedures are occurring sequentially, 
whether we can have them occur concurrently. Something as 
simple as that can shorten the permitting process.
    Senator Gardner. Thank you very much.
    I don't know if Senator Lee brought this up or not, Mr. 
Chairman, but over the past several decades, we've watched as 
our aviation industry--the manufacturing industry has made 
incredible strides in development of new airplanes, new 
airplane technology. Planes are safer, more fuel efficient, 
more reliable, and the United States is obviously a leader in 
that aviation manufacturing and we must maintain that 
leadership.
    One area that has remained relatively stagnant, though, is 
the development of the speed of commercial aircraft. In 
Colorado, we've made rapid advancements in the speed of 
aircraft, and I think there are incredible opportunities to 
pursue supersonic aviation technology that allows for safe and 
quick commercial air travel over land in the United States far 
differently than we've ever pursued in the past in a much--a 
safe, much more reasonable, responsible manner.
    So do you have a position on expanded supersonic aviation 
technology?
    Secretary Chao. There are noise limits, number one. NASA is 
working on this issue, and to the extent that the noise level 
of the supersonic flights can be reduced and would meet current 
regulations, that is something that we hope will happen.
    Senator Gardner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner.
    Senator Young?

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for your presence here today. 
Let me begin by commending the Administration for proposing 
something new with respect to our air traffic control system. 
So often, government falls into this stasis, where we don't 
propose creative new ideas, even those that have been tested, 
tried, and proven to work in other areas. I know that we have 
to incorporate the very valid concerns, which I share, about 
our rural communities and their service into this proposal.
    But as you've indicated, this modernization proposal may 
enhance safety, lead to more independence between the safety 
side of ATC and the operation side and improve procurement. So, 
hopefully, we can improve the proposal and make it something 
that's acceptable to more members of Congress.
    I'd like to turn to standards that your department is 
currently reviewing with respect to transportation of lithium 
ion batteries aboard passenger aircraft. I respectfully request 
that you consider the impact of these policies on public health 
as it pertains to the transportation of lifesaving medical 
devices, many of which are produced in the state of Indiana, 
that utilize these high-standard batteries.
    I urge your department to carefully consider the 
implementation of any restrictions that would impede the 
transport of these lifesaving medical devices aboard aircraft. 
As your department's review moves forward, I look forward to 
working with you, however possible, and your staff to ensure 
there are limited exceptions established to protect public 
health and provide the seamless delivery of lifesaving medical 
devices in time critical situations.
    Could you please briefly offer your thoughts on 
establishing an exception to allow for such transportation?
    Secretary Chao. Lithium batteries can be a problem on 
flight--on airplanes. There is a problem of them 
instantaneously and spontaneously igniting, and they don't need 
oxygen to keep on burning, and it's very difficult to put it 
out, which is why there's such concern about it.
    So one of the current issues is whether these batteries 
should be banned overall or whether they should be put in the 
cabin, where if something did occur, an adverse incident, the 
human factor--human beings will be able to see that something 
is burning and do something about it versus putting them into 
the cargo hold, where it was thought originally to be safer, 
but if there's no human surveillance, then that actually makes 
it more dangerous.
    But let me assure you that this is a difficult issue that 
the administration is grappling with, especially from a 
security point of view. But you bring up a new point, which I 
have not heard being voiced before. So let me have my staff 
work with your staff on us understanding more of that issue.
    Senator Young. Thank you. I think it's worth noting that 
not all lithium ion batteries are created equally. Some are 
more hardened than others. Some are more stable than others. 
And these devices which are often implanted inside human beings 
to save their lives are incredibly stable, are incredibly 
hardened, with very low failure rates. So it's my strong 
conviction they ought to be treated distinctly from lithium ion 
batteries that are found, for example, in a cell phone.
    So we'll look forward to continuing the dialog there, and 
it's my intention to move forward with any improvements your 
department may have to offer and incorporating some policy 
changes in the FAA reauthorization on this matter.
    If I could briefly turn to reiterating the importance of a 
DOT program that's outside of the purview of FAA, it's the 
Capital Investment Grant Program. Back home in Indiana, we have 
several communities that are depending on the long-term 
viability of this transport program for projects like the South 
Shore Line, which provides a vital corridor from South Bend, 
Indiana, to Chicago.
    Indiana communities have worked diligently to provide the 
necessary local funding for this transit program, and we 
believe any state matches are also going to be there. So we're 
depending on this Federal program's viability and continuance. 
So I look forward to working with you and your staff at the 
Federal Transit Administration to ensure the economic benefits 
of this program can be realized in communities like South Bend, 
Mishawaka, Gary, and East Chicago, Indiana.
    So on behalf of our bipartisan Hoosier congressional 
delegation, I hope DOT will continue to prioritize these 
projects and do so in its Fiscal Year 2019 annual report. I 
also want to invite you to visit the South Shore Line in 
Northwest Indiana to see the potential of this line and its 
double track project in the West Lake Corridor Extension 
Project. I know in your nomination hearing, we had discussed 
you visiting Indiana, and I was encouraged by your response, 
and I'm hopeful that you might visit and observe this project.
    Secretary Chao. I look forward to it.
    Senator Young. Thank you so much.
    The Chairman. Thank you, Senator Young.
    Next up is Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Chairman.
    Secretary Chao, thank you. It's good to see you again. I 
appreciate you being here. It's a long morning for you, and I 
appreciate you answering the questions. And let me just say 
this. Thank you for the Passenger Bill of Rights that's on your 
website, because I found it after sitting for just under 3 
hours on a tarmac on that commercial airline. So it was there, 
and thank you very much for that.
    A couple of things that my colleagues touched on--I just 
want to say for the record while I understand your position on 
air traffic control privatization, like many of my colleagues, 
I do have concerns, similar concerns that have been expressed 
by the dozens and dozens of mayors across the country, 
including from many of my rural communities, like Fernley, 
Mesquite, Yerington, and Fallon, and one of the rural 
communities, Boulder City, I want to talk a little bit about, 
and this pertains to the Contract Tower Program.
    In Boulder City, there is a non-towered airport that had 
about 100,000 aircraft operations in 2016, and they have 
experienced several incidents where aircraft using crossing 
runways at the same time have had close calls. A contract tower 
would clearly add an important layer of air traffic safety at 
the airport. Also, Boulder City had about 250,000 air carrier 
passenger enplanements in 2015 and an increase of 15 percent 
over 2013.
    So what can I tell the Mayor of Boulder City who is looking 
to be a part of the Contract Tower Program and whether it is 
going to exist and be protected to their potential benefit?
    Secretary Chao. Whenever there's a budgetary pressure, what 
happens is these contract towers become the easiest targets for 
elimination and cutbacks, which is why, once again, the 
Administration is making the point that the air traffic control 
system really needs to be separate from the regulatory part of 
FAA. It will be a self-sustaining--the air traffic control will 
be--it's basically a change in the governance structure and in 
the financing structure. Nothing will change from one day to 
another during the transition.
    Senator Cortez Masto. So can I ask, under either way, is 
Boulder City assured that they would be able to obtain a 
contract tower under either program, whether we privatize or 
not, that they should still, as a rural community, be able to 
rely on that benefit?
    Secretary Chao. I would hope so, because in the new entity, 
the rural communities will continue to be very, very important. 
And, again, because of the steady budget process, there's 
actually a greater chance of steady funding and, therefore, 
greater stability for programs like the contract towers.
    Senator Cortez Masto. Is that something that you will be 
advocating for to ensure that our rural communities are 
protected under either program and the budget is there to 
protect the needs that they have?
    Secretary Chao. Yes, because I'm always very concerned 
about rural America, and, in particular, with your--yes. So 
with Boulder City, we'd be more than glad to talk to them 
specifically as well.
    Senator Cortez Masto. Thank you very much. And you heard 
from my colleague, Senator Heller. Of course, I am also looking 
for an extension of the programs, the UAS innovation that we 
have, the test site in Nevada, beyond 2019.
    But I'm also curious. I want to just make sure that if you 
could lay out for me--I also know that there has been Federal 
personnel hiring freezes and the Executive Order requiring two-
for-one regulations. I want to make sure that those programs or 
those policies are not holding back any of the development into 
the UAS research and regulations.
    Secretary Chao. I do not believe so. The hiring freeze was 
put into place, as is the case with every administration when 
they first come in, and none of the safety positions are ever 
impacted by the freeze. But I will take a look at--and I don't 
believe that the particular project that you're talking about 
has been impacted.
    Senator Cortez Masto. Great. Thank you. And then you did 
talk a little bit about it with respect to the commercial users 
versus the hobbyists. I appreciate--I know you've stated 
recently at a drone conference in Fargo that the Administration 
is working collaboratively to resolve some of the unique policy 
and legal issues involved in safely integrating drones into our 
airspace.
    Would you concur that there are still a number of 
unresolved questions about aspects of UAS jurisdiction for 
safety and oversight?
    Secretary Chao. I'm not quite sure how to answer that. It's 
a new field, so there are lots of issues about how--I mean, 
with the line of sight and with flying over heads of people, 
for example.
    Senator Cortez Masto. Well, let me put it this way, because 
I agree. I think there are a lot of issues we're looking at, 
many of them safety, many of them preemption. I think there are 
concerns about Federal preemption, as well, out there hindering 
any innovation in this space. So, one, can I get a commitment 
that you're willing to work with us to address all of these 
needs----
    Secretary Chao. Absolutely.
    Senator Cortez Masto.--to make sure that there is that fine 
balance, that we're not hindering that innovation? If you would 
be willing to do so, that would be great. And, then, also, let 
me know, or let us know here in Congress, is there a way that 
we should be--is there space for us to clarify the intent 
regarding the balance of that state and Federal interest 
related to this space of unmanned aircraft? So if I can just 
get a commitment from you that you're willing to work with us.
    Secretary Chao. Yes.
    Senator Cortez Masto. All right. That's easy enough. Thank 
you very much. I appreciate it.
    Secretary Chao. Thank you.
    The Chairman. Thank you, Senator Cortez Masto.
    Senator Duckworth?

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman.
    Secretary Chao, it's good to see you again. Thank you for 
being here.
    As you know, I'm a pilot. I've flown both--I've flown 
aircraft all over the world, both professionally for our 
country, but now as a private citizen, and without a doubt, our 
U.S. air traffic control system is the best, but also the most 
complex in the world. Our air traffic controllers do a 
phenomenal job in ensuring that U.S. air travel is safe and 
efficient. Does their technology need an upgrade? It does, 
absolutely. But that's a procurement issue.
    If there's a problem with our system, it's that Congress 
does not guarantee the FAA consistent and reliable funding to 
do their jobs more successfully. And we've already heard today 
that the FAA is exempt from the Federal procurement rules, so 
they could, if Congress would allow them to do so, procure the 
technology they need far faster than the current rate.
    When we last spoke, I highlighted that a primary goal of 
the FAST Act is to provide highway and transit decision makers 
with the funding certainty that they need to make good 
decisions. In that same vein, if Congress was willing to 
provide FAA with funding certainty, then the FAA could plan 
better, speed up NextGen implementation, and avoid a massive, 
costly, and potentially dangerous reorganization of our air 
traffic control system by privatizing it.
    We're not Canada. We're not Great Britain. The FAA 
successfully manages the busiest and most complex airspace in 
the entire world. It's not even in the same ball park. And yet, 
despite the great challenge, the FAA has made America's air 
traffic control system the safest in the world. It's certainly 
safer than any of the examples championed by advocates of 
privatization. I don't take our air traffic controllers for 
granted, and I will not gamble with the safety of the flying 
public to address funding reliability issues. I strongly oppose 
any proposal to privatize the FAA--the airspace, excuse me.
    As you know, transportation plays a critical role in 
connecting Americans and communities across this country and to 
economic opportunities, and as a member of three 
infrastructure-related committees, one of my top priorities is 
ensuring that communities where Federal projects are located 
benefit from the results from that investment so that those 
jobs remain in those particular areas. This is particularly 
important if a worker is in low-income and rural areas.
    In 2015, Congress established a local labor pilot program 
that enabled states and municipalities to consider geographic-
hiring preferences, economic-based hiring preferences, and 
labor-hiring preferences for veterans for Federal relief funded 
highway and transportation projects. As a metric of this 
success, the pilot has been renewed twice, most recently for 5 
years.
    Considering the focus of today's hearing, would you commit 
to working with me to expand that pilot program to aviation 
projects?
    Secretary Chao. I don't know enough about it, but I'm 
always willing to work with Members of Congress.
    Senator Duckworth. That would be great. Thank you. I think 
that this is--if you look at the fact that it has been renewed 
twice, it's a good sign of its success. I would hope that we 
would be able to expand it.
    Earlier this year, your office delayed a rule that would 
have made it easier for consumers living with disabilities to 
know how frequently airlines damage critical mobility 
equipment, like wheelchairs or scooters. I sent you a letter 
asking you to explain that decision to delay the rule, but you 
haven't responded yet, and, in fact, you just told Senator 
Blumenthal that you have a reputation of always responding, and 
I have not yet received a response from you.
    Secretary Chao. Your letter I know about. I didn't mean to 
interrupt. Sorry.
    Senator Duckworth. Oh, no, no. That's fine. Will you commit 
to responding to my letter now?
    Secretary Chao. Absolutely.
    Senator Duckworth. Thank you. Along that vein, as a former 
member of the House Oversight Committee, I truly believe that 
Congress has a constitutional obligation to ensure that 
taxpayers' dollars are spent wisely and that we help foster an 
environment where any individual, regardless of background, can 
achieve the American dream. Effective and efficient 
government--that's my goal.
    Oversight of the Executive Branch should not be a partisan 
issue. Transparency of accountability should not be a partisan 
issue. So I am deeply troubled that the White House recently 
ordered Federal agencies to disregard requests for information 
from congressional Democrats. I'm sure my Republican colleagues 
see the folly in this directive. As we know, both parties have 
experience in the minority.
    Will you commit to providing all congressional offices, not 
just Republicans, with timely responses to requests for 
information?
    Secretary Chao. I always have. But this particular issue 
was different. This is an oversight issue, and in 
administrations past, including the previous administration, 
the oversight always comes from the Chairman and the Ranking.
    Senator Duckworth. But we've not always required the 
Chairman to sign off on the requests.
    Secretary Chao. This is not a new practice by this 
Administration. It was followed by the previous Administration 
as well.
    Senator Duckworth. So why did the Administration feel the 
need to issue a new letter?
    And, in fact, Mr. Chairman, I request unanimous consent 
that this article I have, ``White House Orders Agencies to 
Ignore Democrats Oversight Requests,'' to be included in the 
record.
    The Chairman. Without objection.
    Senator Duckworth. Thank you.
    [The information referred to follows:]

                          Politico--06/02/2017

  White House orders agencies to ignore Democrats' oversight requests

Trump's aides are trying to shut down the release of information that 
        could be used to attack the president.

                   By Burgess Everett and Josh Dawsey
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Trump administration's plans to stonewall Democrats is in many 
ways unprecedented and could lead to a worsening of the gridlock in 
Washington.--Getty

    The White House is telling Federal agencies to blow off Democratic 
lawmakers' oversight requests, as Republicans fear the information 
could be weaponized against President Donald Trump.
    At meetings with top officials for various government departments 
this spring, Uttam Dhillon, a White House lawyer, told agencies not to 
cooperate with such requests from Democrats, according to Republican 
sources inside and outside the administration.
    It appears to be a formalization of a practice that had already 
taken hold, as Democrats have complained that their oversight letters 
requesting information from agencies have gone unanswered since 
January, and the Trump administration has not yet explained the 
rationale.
    The declaration amounts to a new level of partisanship in 
Washington, where the president and his administration already feels 
besieged by media reports and attacks from Democrats. The idea, 
Republicans said, is to choke off the Democratic congressional 
minorities from gaining new information that could be used to attack 
the president.
    ``You have Republicans leading the House, the Senate and the White 
House,'' a White House official said. ``I don't think you'd have the 
Democrats responding to every minority member request if they were in 
the same position.''
    A White House spokeswoman said the policy of the administration is 
``to accommodate the requests of chairmen, regardless of their 
political party.'' There are no Democratic chairmen, as Congress is 
controlled by Republicans.
    The administration also responds to ``all non-oversight inquiries, 
including the Senate's inquiries for purposes of providing advice and 
consent on nominees, without regard to the political party of the 
requester,'' the spokeswoman said. '' Multiple agencies have, in fact, 
responded to minority member requests. No agencies have been directed 
not to respond to minority requests.''
    Republicans said that President Barack Obama's administration was 
not always quick to respond to them and sometimes ignored them. 
However, the Obama White House never ordered agencies to stop 
cooperating with Republican oversight requests altogether, making the 
marching orders from Trump's aides that much more unusual.
    ``What I do not remember is a blanket request from the Obama 
administration not to respond to Republicans,'' said a former longtime 
senior Republican staffer.
    There are some exceptions to the Trump administration order, 
particularly from national security agencies, Democrats and Republicans 
said. Agencies will also comply if a Republican committee chairman 
joins the Democratic requests, but ranking members' oversight requests 
are spurned.
    Congressional minorities frequently ask questions of the 
administration intended to embarrass the president or garner a quick 
headline. And Democrats have fired off requests they surely knew the 
administration would not answer, such as asking the White House in 
March to make visitor logs of Trump Tower and Mar-A-Lago publicly 
available.
    But House and Senate lawmakers also routinely fire off much more 
obscure requests not intended to generate news coverage. And the Trump 
administration's plans to stonewall Democrats is in many ways 
unprecedented and could lead to a worsening of the gridlock in 
Washington.
    Austin Evers, a former Obama administration lawyer in the State 
Department who runs a watchdog group called American Oversight, said 
the Trump administration has instituted a ``dramatic change'' in policy 
from Reagan-era congressional standards in which the government 
provided more information to committee chairman but also consistently 
engaged in oversight with rank-and-file minority members.
    ``Instructing agencies not to communicate with members of the 
minority party will poison the well. It will damage relationships 
between career staffers at agencies and subject matter experts in 
Congress,'' Evers said. ``One of the reasons you respond to letters 
from the minority party is to explain yourself. It is to put on the 
record that even accusations that you find unreasonable are not 
accurate.''

            Trump White House grants waivers of ethics rules

                            By Josh Gerstein

    One month ago, Rep. Kathleen Rice (D-N.Y.) and other Democrats sent 
a letter to the Office of Personnel Management asking for cybersecurity 
information after it was revealed that millions of people had their 
identities compromised. The letter asked questions about how 
cybersecurity officials were hired, and in Rice's view, it ``was not a 
political letter at all.''
    ``The answer we got back is, `We only speak to the chair people of 
committees.' We said, `That's absurd, what are you talking about?' '' 
Rice said in an interview. ``I was dumbfounded at their response. I had 
never gotten anything like that . . . The administration has installed 
loyalists at every agency to keep tabs on what information people can 
get.''
    At a House Appropriations hearing in May, Rep. Matt Cartwright (D-
Pa.) asked acting General Services Administrator Tim Horne about a 
briefing House Oversight Committee staffers had received from the GSA, 
in which they were informed that the ``GSA has a new policy only to 
respond to Republican committee chairmen.''
    ``The administration has instituted a new policy that matters of 
oversight need to be requested by the Committee chair,'' Horne 
responded.
    In February, Sen. Patty Murray (D-Wash.), and Sen. Ron Wyden (D-
Ore.) asked for information on changes to healthcare.gov from the 
Health and Human Services Department. They're still waiting for an 
answer. In early May, Murray and six other senators asked the president 
about why Vivek Murthy was dismissed as surgeon general. There was no 
response, and her staff said those are just a couple of the requests 
that have gone unanswered.
    ``It's no surprise that they would try to prevent Congress from 
getting the information we need to make sure government is working for 
the people we represent,'' Murray said when asked about the lack of 
cooperation.

        Trump announces U.S. withdrawal from Paris climate deal

                By Andrew Restuccia and Matthew Nussbaum

    The Senate's Homeland Security and Government Accountability 
Committee, the primary investigator in that chamber, has received some 
responses from the Trump administration but has seen several letters 
only signed by Democrats ignored. Sen. Claire McCaskill (D-Mo.) wrote 
Education Secretary Betsy DeVos asking for help addressing the 
challenges of rural schools and joined with Sen. Tom Carper (D-Del.) to 
question the security of Trump's use of a personal cell phone as 
president. Neither was answered, an aide said.
    A senior Democratic aide said that of the Senate Democrats' 225 
oversight letters sent to the Trump administration since January asking 
for information, the vast majority have received no response.
    ``When it comes to almost anything we've done at a Federal agency, 
very close to 100 percent of those we haven't heard anything back. And 
at the White House it's definitely 100 percent,'' said a second senior 
Democratic aide. ``This is rampant all over committee land.''

    Senator Duckworth. Why would the White House feel the need 
to do that, then?
    Secretary Chao. You'll have to ask the White House.
    Senator Duckworth. All right. Thank you so much.
    The Chairman. Thank you, Senator Duckworth.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much.
    Thank you so much, Madam Secretary. I was here earlier and 
heard a few of your answers and then had some other things. But 
I wanted to first of all reiterate--I know Senator Moran had 
talked about some of our concerns with the air traffic control 
reform, and I know we'll be talking about those going forward, 
and he's covered some of that and also the Essential Air 
Service budget cuts that I know Senator Fischer and Senator 
Schatz mentioned.
    So I thought I would focus on something that hasn't been 
discussed, the Small Airplane Revitalization Act, which I 
introduced with Senator Murkowski. As you know, that was signed 
into law, and it requires the FAA to modernize Part 23 
certification regulations for small airplane design, and 
there's still work to do on this certification process.
    The Senate-passed comprehensive FAA reauthorization bill 
from last time included provisions to further streamline the 
certification process, and I'm hopeful that this 
reauthorization bill, Mr. Chairman, includes important 
certification reforms.
    Secretary, how would U.S. companies be affected if the FAA 
fell behind other countries in developing new certification 
standards?
    Secretary Chao. We certainly would not like that to happen, 
and we want to be up to date and responsive. So we continue to 
work on that, probably not as quickly as we would like, but we 
continue to work on that.
    Senator Klobuchar. Thank you. I just think it's really 
important. We manufacture some of these jets in Minnesota, 
Cirrus up in Duluth, and we really try to keep up to date so we 
can compete with other nations, and a lot of it is safety 
reforms, as you know. So I appreciate it.
    Here's one I think you've heard of. Open Skies Agreements 
are an important part of the U.S. transportation policy for all 
air carriers. Both Democratic and Republican administrations 
have pursued and expanded these agreements, which have provided 
U.S. consumers and carriers and airports with more choice.
    Senator Isakson and I recently sent you a letter raising 
concerns about government support for state-owned carriers. Of 
course, there are other countries. In your response, you 
reaffirmed the value of the Open Skies Agreement. We're very 
concerned about the negative effect, as this keeps going, that 
it is going to have on American carriers and, thus, American 
jobs.
    What steps is the administration taking to ensure that the 
Open Skies Agreements are protecting U.S. workers and carriers 
from unfair competition?
    Secretary Chao. We are concerned about protecting U.S. 
jobs, and this is a very complicated issue with stakeholders on 
both sides. So we in the administration are consulting with one 
another, and we hope to have a decision pretty soon.
    Senator Klobuchar. OK. That would be very good, because it 
just keeps getting worse and worse, and--yes, OK. Well, that's 
good. Thank you.
    Safe skies--safety isn't just about the quality of the 
planes. As you know, it's also depends on our own aviation 
workforce. A tired pilot, as we've seen in the horrible crash 
in the Buffalo area, is not just a danger to themselves but to 
those in the air and on the ground. The Safe Skies Act, which I 
plan to reintroduce, is something that I introduced with 
Senator Boxer. The bill would take the rest requirements put in 
place for passenger pilots, after the Colgan Flight 3407, and 
apply them to cargo pilots. Currently, they have looser 
requirements.
    What actions is the Administration taking to combat pilot 
fatigue?
    Secretary Chao. Well, there are rules and regulations on 
the books already, and so we certainly are enforcing them. And 
if the Congress has a different point of view or any additional 
concerns about safety, we look forward to working with you on 
that.
    Senator Klobuchar. Thank you. And then one last question. I 
recently led a letter with Senator Moran urging the DOT to 
investigate incidents of fraudulent and deceptive practices in 
the online travel and tourism marketplace. We know that some 
deceptive online companies imitate the websites of actual 
airlines in order to attract bookings. There's also legislation 
on this. These fraudulent sites can leave consumers with 
airline itineraries that can't be honored and misconnections 
and lost money.
    Is the Department taking some new steps to combat what is a 
relatively new problem, and that's online travel fraud?
    Secretary Chao. We are very cognizant of this issue. We are 
looking at it. I also hope to have more staffing in the future 
as we go forward. That certainly would help us address this 
issue as well.
    Senator Klobuchar. OK. Very good. Just one last question. 
The 2016 FAA extension bill required the Department to take 
measures to allow families to sit together when traveling on a 
plane. There hasn't been a proceeding or a study yet. The 
deadline to establish policies on family seating is coming up. 
What is the Department's plan on that?
    Secretary Chao. We're obviously sympathetic to the 
traveling public who have family members who are separated. We 
think, though, that the airlines themselves, number one, would 
take it upon themselves to do something about it, a voluntary 
action in the cabin itself. But we will look forward to working 
with you on it.
    Senator Klobuchar. OK. Thank you very much. And my contract 
towers questions--I heard some of the answers while I was here, 
so I really appreciate it, and thank you for your service.
    Secretary Chao. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Madam Secretary, we appreciate your patience. We'll wrap up 
here momentarily. I don't think we have any members that I know 
of that are coming back.
    But let me just ask a question regarding the general 
aviation community, which is very concerned about how it would 
fare under the new proposed ATC system. The administration's 
principles stressed the importance of maintaining access for GA 
users, but also note that all users of the system should pay 
their fair share.
    Does the administration envision the new entity being able 
to charge per-flight user fees on general aviation operators?
    Secretary Chao. I'm so glad you brought it up, because in 
my various previous statements, I had not mentioned general 
aviation enough, and I was actually going to end my testimony 
today with a mention of the general aviation's interests. We 
are very concerned about, obviously, their concerns about the 
administration's proposal. We're committed to working with 
them. Maintenance of access is a huge issue.
    They will have--general aviation will be nominating two of 
the seats out of 13 seats, same as the airlines. So, again, 
general aviation's interests and influence will be felt. The 
other thing I should say is general aviation also includes 
corporate jets. So that's a bit different than the mom-and-pop 
single pilot that's flying around the country. So we understand 
the issues that general aviation is concerned about, and we 
want to work with them.
    The Chairman. And to that point, one of the major concerns 
that they have is cost to access the airspace and whether or 
not user fees would be assessed. So that's why--you know, the 
specific question about whether or not the administration does 
envision that new entity assessing per-flight user fees on 
general aviation operators, and that's a question, I think, 
that they'll----
    Secretary Chao. I think it's open at this point. But using 
just one example, NAF-Canada under--they currently just 
decreased, once again, their fees for general aviation. I think 
it's like $65 for the year. So it's quite low.
    The Chairman. As you've heard today, there are a lot of 
questions that need to be addressed, and there is a consensus 
on this committee on that particular issue, and we're moving 
forward with our legislation. We'd love to do a multi-year FAA 
reauthorization bill that would attract broad support in the 
Senate. That was the case that we had last time.
    So I guess what I would suggest coming out of this hearing 
is that you and your team and the Administration make every 
effort possible to try and find consensus among the stakeholder 
community on this issue, because it will be much easier to get 
consensus on this committee and in the Senate if there is 
consensus among those who are going to be most impacted by any 
proposed changes. Right now, I think, as you heard today, there 
are lots of questions on both sides about how this new system 
would function and operate. So the more precise, as you work 
through this, the answers to those questions can become, I 
think the more clarity you'll have about where this committee 
and, in a broader sense, the whole Senate might be.
    I know there's a great interest in moving forward in the 
House with this approach, and we'll be monitoring, obviously, 
the action there and see what they are able to do and 
responding accordingly. But one thing that we won't probably do 
is wait forever. We're going to move forward. We are in the 
process of drafting legislation right now. There are a whole 
range of other issues, as was pointed out today, too, that 
affect aviation in this country, most of which, if not all, we 
will address in our legislation.
    So we'll continue to work with you and hear from you and 
your team on all those issues, but, particularly, with regard 
to the proposal on air traffic control reform, and I would 
encourage you to reach out to the stakeholder community and try 
and find consensus on this issue. It'll make it a lot easier 
moving forward.
    Secretary Chao. Thank you.
    The Chairman. I think with that, we will keep the hearing 
record open for a couple of weeks, and if members wish to 
submit questions, we will ask that they do that in that 
timeframe, and to the degree that you can respond as quickly as 
possible, that would be most appreciated.
    But thank you for being here today and for your response to 
the many questions raised by members of this committee, and we 
look forward to continuing to work with you. Thank you, Madam 
Secretary.
    Secretary Chao. Thank you. We look forward to working with 
you.
    The Chairman. This hearing is adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Jerry Moran to 
                          Hon. Elaine L. Chao
    Question 1. Secretary Chao, Senator Udall recently worked together 
to expand the Spectrum Relocation Fund to include a $500 million pool 
for research and development, representing a significant bipartisan 
legislative accomplishment.
    I am pleased that the FAA recently announced that it is taking 
advantage of those funds to investigate whether it can relinquish some 
of the 1300-1350 MHz band of spectrum. This is encouraging news as more 
spectrum will be needed to deploy the next-generation of wireless 
networks, 5G.
    Can you elaborate on how FAA will move this process forward in a 
timely fashion so that this spectrum is made available for auction?
    Answer. FAA is collaborating with Department of Defense (DOD), 
Department of Homeland Security (DHS) and the Department of Commerce, 
National Oceanic and Atmospheric Administration (NOAA) on a program 
called Spectrum Efficient National Surveillance Radar (SENSR). The 
SENSR Program will help determine if it is feasible to make available 
the band 1300-1350 MHz for reallocation of current Federal radar use to 
shared Federal and non-Federal use through updated radar technology. 
This would permit the freed-up spectrum to be auctioned by 2024.
    In January 2017, the Office of Management and Budget (OMB) and an 
interagency Technical Panel approved the jointly developed Spectrum 
Pipeline Plan. Congress had an opportunity to review it and allowed OMB 
to release funding to the partner agencies to begin substantive work on 
the SENSR Program. Since then, FAA, DOD, DHS and NOAA signed a 
memorandum of agreement (MOA), which allowed a joint program office 
(JPO) to formally be established in May. Currently the SENSR Program is 
on track to evaluate and, if feasible, support auctioning spectrum in 
the 1300-1350 MHz band by 2024.

    Question 2. Secretary Chao, several administration officials have 
made the argument that the U.S. air traffic system is antiquated 
because it relies on ground-based surveillance systems, specifically 
radar, and not GPS.
    However, in regards to moving beyond radar toward satellite-based 
GPS, my understanding is the FAA has, in concert with aircraft 
operators and private sector technology, deployed a nationwide GPS-
enabled navigation and surveillance infrastructure.
    In fact, a business in my home state of Kansas, Garmin, Ltd., has 
over 150,000 navigation avionics systems utilizing GPS to safely and 
more efficiently navigate into 1,847 airports which have deployed GPS 
approaches.
    Can you please clarify the administration's position or beliefs 
regarding the use of GPS technology being utilized today to navigate 
within the air traffic control system?
    Answer. As you noted, GPS-based navigation and surveillance is 
already widely in use in the National Airspace System.
    Automatic Dependent Surveillance-Broadcast (ADS-B), one of the 
foundations of NextGen, uses GPS satellites to determine aircraft 
location, ground speed, and other data. This information is relayed to 
a series of ground stations and then integrated into air traffic 
control automation systems. Aircraft flying in certain airspace must be 
equipped for ADS-B by Jan. 1, 2020. It is important to note that some 
ground based radar capabilities will be retained for safety and 
security reasons.
    Performance Based Navigation (PBN) is an advanced, GPS-enabled form 
of air navigation that creates precise 3-D flight paths that can lower 
fuel consumption and emissions as well as save time in flight. To date, 
the FAA has published more than 9,000 PBN procedures and routes.
    PBN procedures require various avionics capabilities depending on 
the level of navigation precision involved. Almost all air transport 
aircraft today are equipped to take advantage of some form of GPS-based 
procedures. More than 85,000 general aviation aircraft, including about 
7,000 business jets and turbo props, are equipped with GPS avionics 
from manufactures like Garmin to fly WAAS-enabled LPV or LP procedures. 
Thousands of other aircraft are equipped with basic GPS navigation 
capabilities that assist aviators with flying direct routes and improve 
safety by providing precise location information.
    Because of mixed equipage, not all aircraft can fly the most-
demanding types of PBN procedures. New aircraft usually have the latest 
avionics while older aircraft have a mix of avionics of various ages 
and capabilities. Replacing aging equipment can prove too expensive for 
some aircraft operators and may lead to an aircraft being retired. In 
other cases, an aircraft's existing equipment may be adequate for the 
types of flight operations planned.
    While the U.S. remains the gold standard in aviation, the 
Department of Transportation understands that continued innovation and 
modernization--including expanded use of the GPS technologies 
mentioned, are important to safety and global leadership. Shifting air 
traffic control out of the government, improving accountability to 
aviation users and operational adaptability are key steps to achieving 
these goals. While NextGen modernization has been implemented at 
certain airports and facilities under current constraints, these 
efforts are often hampered by piecemeal government appropriations and a 
slow Federal procurement process. A private, nonprofit ATC co-op would 
be able to leverage private sector financial tools with agility and 
ingenuity, and accelerate advances in aviation technology. Combined 
with a steady, predictable revenue stream from user fees and borrowing 
from capital markets when necessary, the new ATC would be able to make 
the best modernization investment decisions to keep ATC technology up-
to-date and competitive with that of our global peers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                          Hon. Elaine L. Chao
    Question 1. A road system connecting communities throughout Alaska 
does not exist. Federal land ownership has carved up the State of 
Alaska such that it is nearly impossible to build terrestrial roads, 
thus the need to travel by air. 82 percent of Alaska communities are 
not on the road system and rely on aviation as the primary means of 
transportation.
    I have deep reservations about any proposal to transfer the FAA's 
air traffic facilities to a quasi-private corporation and allow it, 
rather than Congress, to make decisions on where funding should be 
spent and how much tax general aviators should pay. This threatens to 
leave rural communities largely ignored. The 582 airports out of 600 in 
Alaska that do not have air traffic control would receive little if any 
funding for upgrades and new technology, and it is unclear what would 
happen to the 400 navigation aids that Alaskans depend on. The largest 
hubs would receive the lion's share of the funding leaving states like 
Alaska with no recourse.
    Do you agree that congress, as representatives of the larger public 
interests, is in the best position to allocate resources between the 
few dozen airports serving larger cities and the thousands of general 
aviation airports and facilities serving rural America?
    Answer. We believe rural communities will have more reliable 
services under ATC reform because funding for the management of the 
system will not be consistently jeopardized by the unpredictable 
funding process for aviation programs. Ultimately, a self-funded air 
traffic control organization not tied to the Congressional budget 
process will allow the financing and implementation of high-tech and 
state of the art technologies for managing airspace, making air travel 
safer, and lead to greater access for all users.

    Question 2. Similarly, I have concerns over a non-public entity 
making decisions regarding the allocation of airspace. In Anchorage for 
example, airspace is shared among Ted Stevens International, Merrill 
Field, one of the largest general aviation airports in the country, 
Lake Hood, the world's largest floatplane airport, and major military 
airfields which conduct air training activities. With more licensed 
pilots per capita than any state in the union we have (7,933 active 
pilots), we have an extremely active General Aviation (GA) community in 
Alaska. Allocating air space among these diverse users should be 
determined by a government entity, not a private organization.
    Do you agree that airspace should be available to all users, 
including those serving small towns and villages as well as individuals 
as it is currently?
    Answer. Ensuring continuity for GA and rural and small community 
air service are part of the Administration's guiding principles for 
modernizing the U.S. air traffic control system (ATC). Any changes to 
procedures would need to be in accordance with the law and approved by 
the safety regulator--the FAA--before they could be implemented. The 
Administration has consistently stated that all users, including 
general aviation, must continue to have open access to our Nation's 
airspace. Under a modernized ATC system, GA operators would continue to 
be guided through the national airspace by controllers operating under 
the same rules that apply today--with safety as their first priority.
    Delivering a more efficient ATC system is the most reliable way to 
ensure continued GA access and to reduce the risk that increased 
congestion could crowd out GA in certain areas. Reform will also mean 
streamlining regulatory matters currently impacting small airports and 
could lower costs for them. Additionally, increased efficiency and 
capacity in the airspace could mean more frequent flights to rural 
communities, driving economic growth.

    Question 3. During Secretary Chao's nomination hearing, Chairman 
Thune posed the following question: ``If confirmed what will you do to 
improve aviation connectivity to rural communities?''
    Then-nominee Chao replied: ``Rural communities are an essential 
part of our country and their access to affordable and easy air service 
is an issue and something that we have talked about in many many ways 
over the years, so I look forward to working with congress on 
continuing the EAS program, and finding ways in which we can improve 
it, as well.''
    As part of the overall spending reduction effort, the 
Administration's FY2018 budget proposes eliminating the discretionary 
funding for the EAS program. (This does not eliminate the $110 million 
derived from mandatory overflight fees). The proposal would save $175 
million and notes that the EAS program was supposed to be temporary 
when it was established over 40 years ago.
    In my state of Alaska, Essential Air Service is not only key to 
small communities maintaining air service but also is critical to 
linking them to the rest of the state, the Nation and the world. Many 
of the approximately 60 communities in Alaska covered by EAS have no 
other linkage to our Nation's transportation system and without the 
program, air service would not be economically viable to maintain even 
minimal service.
    You stated your interest in working with congress on the 
continuation of EAS. How much input did you have in the development of 
the Administration's proposed Fiscal Year 2018 budget?
    In regards to the final FY18 Budget, did you anticipate it to 
respect the commitments made by the nominees?
    When congress develops appropriations legislation that restores 
EAS, do you expect the Administration to raise EAS in any Statement of 
Administration Policy?
    Answer. Development of any Executive agency's budget is a complex 
and collaborative process. The Administration's budget proposal for the 
Essential Air Service Program is intended to improve the program to 
ensure the continued funding of air service for the neediest and most 
remote communities.
    By any objective standard, many Alaskan communities are precisely 
the type of communities that the program is designed to serve. The 
Department will continue to carry out its commitment to improve the EAS 
program to ensure air service for the communities that need it most.
    The Department does not prepare or release Statements of 
Administration Policy (SAPs) and I would be reluctant to predict the 
content of any particular SAP. Nevertheless, as I noted at my 
nomination hearing, I look forward to working with Congress on 
continuing the EAS program, and finding ways in which we can improve 
it.

    Question 4. As I previously discussed with Jeffery Rosen, confirmed 
recently to be the Deputy Secretary of Transportation, and Derek Kan, 
who is next up for nomination to be Undersecretary for Policy at U.S. 
Department of Transportation--
    We are experiencing an aviation weather related dilemma in Alaska, 
as recent changes in FAA policy are placing an unworkable national 
requirement for weather forecasting and weather reporting for air 
service to operate in Alaska.
    Alaska does not have adequate aviation weather monitoring and 
reporting capabilities due to the lack of infrastructure at a large 
number of our airports. FAA has not funded new weather infrastructure 
in Alaska since the 1990s.
    This lack of data had previously justified the local FAA allow 
carriers to use a combination of inputs to satisfy the requirement, 
which allowed communities to be served.
    The FAA abandoned the long established interpretation of the 
weather reporting requirements for Part 121 (scheduled air carrier) 
operations, which have been in place the past 50 years.
    In doing so, there has been a tremendous burden, both operationally 
and economically, place on the Part 121 carriers who operate to 
locations other than major airports.
    I raised this issue during the nomination process for Jeffrey Rosen 
to serve as DOT Deputy Secretary, asking him to work with me and my 
staff to address this problem.
    To DOT's credit, FAA has met with the carriers and my staff and 
attempted to extend an olive branch to the Part 121 operators by asking 
them to, over 60 days (by July 1), develop recommendations as to how 
they will comply with the 2014 interpretation.
    I ask that this dialogue continue. However, I am concerned that 
this is not a move forward in the resolution of this issue. This may 
result in merely placating the Part 121 operators to a point they will 
acquiesce to the regulatory agenda of Flight Standards.
    I ask that FAA analyze the current and historical operations of the 
carriers, and review the 2014 interpretation for consistency with all 
previous documents created on this subject, keeping in mind the 
flexibility given by congress in the law for the Administrator to make 
appropriate regulatory distinctions for Alaska.
    Should, as I anticipate, this interpretation be determined as 
inadequate, it should be removed from all files as a source of record 
and deemed no longer relevant.
    This has occurred previously such as on September 22, 2008 when 
previous FAA Chief Council recognized an interpretation associated with 
``Known Icing Conditions'', written November 21, 2006, was poorly 
written lacking research and intellectual rigor, just as the mentioned 
2014 interpretation, and did not represent the established law.
    Until this is resolved, I ask that weather requirements for in my 
state be as they have been the past five decades.
    Answer. We are aware of the unique operational challenges in Alaska 
and its limited infrastructure and are committed to working with the 
affected air carriers in Alaska to find creative solutions that allow 
them to meet the standards, given the unique nature and significance of 
aviation to the State. This includes working with all of the Part 121 
operators in Alaska to increase the availability of weather information 
in more of Alaska. FAA does not intend to issue penalties to operators 
while this matter is evaluated and we encourage Part 121 operators to 
continue engagement with FAA to develop alternative weather measures.
    We anticipate and have promoted the use of creative solutions, 
beyond strictly the use of well-known products such as Terminal 
Aerodrome Forecast (TAF) and Meteorological Terminal Air Report 
(METAR). The alternatives are many and do include a regulatory 
exemption, which would require that a carrier show that granting the 
exemption would not adversely affect safety or provide a level of 
safety equal to that provided by the rule from which exemption is 
sought. We believe we can resolve this issue without going through the 
exemption process.
    FAA Flight Standards representatives are focused on assisting the 
affected operators to meet the standards for appropriate forecasts and 
local weather. We are working with all five Part 121 operators in 
Alaska which have submitted to the FAA initial processes for operating 
safely and within the standards. Based on the initial submissions 
received, FAA is working with carriers to develop more detailed plans 
over the next couple months. We anticipate this issue will be fully 
addressed by the end of September, before the start of Alaska's winter 
weather season. We are committed to maintaining to a cooperative 
dialogue until the issue is resolved.
    FAA's immediate focus and commitment is to work collaboratively 
with the affected operators, and in the development of appropriate 
forecasts and local weather reporting, to ensure continued air 
services. We will approve or seek clarity on submitted processes in a 
timely manner and will keep you informed of our progress.

    Question 5. In previous appearances before this committee and the 
Committee on Environment & Public Works (EPW), you have mentioned your 
interest in lowering the regulatory burdens where they are too 
cumbersome.
    As you may know, FAA prohibits ``non-aviation use'' of FAA funded 
airport access roads.
    In remote areas of Alaska, where we have little infrastructure to 
speak of, an airport access road is typically the major piece of 
village infrastructure.
    A strict interpretation of this prohibition of ``non-aviation 
uses'' prevents property owners from using airport roads to access 
their adjacent lands, including adjacent Alaska Native land allotments.
    Further, instead of connecting two communities (Nanwalek and Port 
Graham) and only building one airport, due to this restriction the FAA 
would prefer to spend the extra money on two airports because there 
would likely be traffic between the communities on the ``airport access 
road'', and that isn't allowed.
    This may be a reasonable policy for the rest of the states, but the 
rigidity of the funding is not appropriate in remote areas of Alaska.
    Are you willing to lend your support for language to be included in 
the FAA legislation to provide a higher degree of local use for airport 
access roads located off the contiguous road system in Alaska?
    Answer. I am very sensitive to needs of remote communities like 
Nanwalek and Port Graham and am also aware of the current statutory 
restrictions that require airport access roads that receive airport 
improvement program (AIP) funds to be used exclusively for airport 
traffic. I would be happy to work with you on this issue and would note 
from the outset that the Nanwalek/Port Graham community situation may 
be an appropriate opportunity for the community, the FAA and the 
Federal Highway Administration (FHWA) to work collaboratively toward an 
acceptable solution. The FHWA's Tribal Transportation Program (TTP) is 
available to Alaskan native villages to fund construction of access and 
development roads and may be a helpful funding source for these 
communities. I would be pleased to put your staff in touch with the 
appropriate DOT staff to explore possible solutions. Information on the 
TTP program can also be found at: https://flh.fhwa.dot.gov/programs/
ttp/

    Question 6. The public transportation needs of Alaska, like 
everywhere else, far exceed resources. Federal Transit Administration 
urbanized area formula funds for Anchorage for this year and last year 
are held up, creating strains that increase by the day. I have joined 
both with Senator Murkowski and Congressman Young in requesting that 
the Department make an Administrative determination with respect to 
resolving the blockage of some $30 million in FTA section 5307 funds 
from flowing to my State of Alaska--to the Alaska Railroad and the 
Municipality of Anchorage.
    It is my understanding that the Alaska Railroad met with the Geoff 
Burr and other senior Department Officials and members of the 
Secretary's staff on May 2nd and I'm told there was agreement that the 
current Administration would take a fresh look at the Railroad's, and 
the Alaska Delegation's, request for an Administrative determination. 
Can you tell me where this stands?
    Answer. The Alaska Railroad requested that FTA provide a default 
means for splitting Section 5307 Urbanized Area Formula Program funds 
because the recipients designated by the Governor in the Anchorage 
area--the Municipality of Anchorage and the Alaska Railroad--cannot 
reach agreement on a sub-allocation of the funds. My office has 
reviewed this issue and determined that the Department of 
Transportation does not have the legal authority to allocate Section 
5307 funds between these two designated recipients. Pursuant to 49 
U.S.C. Sec. 5302(4)(A), recipients designated through the planning 
process by the Governor have the authority to ``receive and apportion'' 
amounts received under 49 U.S.C. Sec. 5336 to urbanized areas of 
200,000 or more in population like the Anchorage urbanized area. 
Consistent with this statutory provision and FTA guidance, these 
designated recipients are responsible for deciding the sub-allocation 
of apportioned Federal funds. Pursuant to FTA Circular 9030.1E, 
``designated recipients and the Metropolitan Planning Organization 
(MPO) should determine the subarea allocation fairly and rationally 
through a process based on local needs and agreeable to the designated 
recipients.''
    Due to the fundamentally local nature of sub-allocation 
determinations, the Department of Transportation cannot impose a sub-
allocation decision on duly designated recipients. This decision must 
be made by the designated recipients, or the Governor of Alaska can 
resolve the issue by changing the designation of recipients. It is 
critical that the parties arrive at a timely resolution so service 
remains available to the people who use public transportation in 
Anchorage and the Alaska Railroad.
    FTA facilitated a meeting in Anchorage on February 9, 2017 between 
Anchorage and the Alaska Railroad, at which a number of potential 
options were discussed, but my understanding is that the dispute 
continues. Until the two parties reach an agreement on the sub-
allocation of Section 5307 Urbanized Area Formula Program funds, or the 
Governor of Alaska resolves the issue by taking a redesignation action, 
FTA cannot award the Section 5307 grants to either entity.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dean Heller to 
                          Hon. Elaine L. Chao
    Question 1. Last year, one of the central issues debated in this 
Committee on drone issues was ``federal pre-emption.''
    In some cases, states have implemented laws that exert jurisdiction 
over national airspace, an inherent Federal responsibility.
    In other cases, like in Nevada, our legislature has adopted forward 
looking measures that protect our constituents' privacy and empower 
local law enforcement to actually enforce restrictions that the FAA 
simply does not have the resources or infrastructure to conduct. Is 
there any action Congress can take so that states like Nevada can take 
action, while still providing regulatory certainty that encourages 
innovation?
    Answer. The FAA is charged by statute with providing access to 
airspace and ensuring its safe and efficient use. It is also important 
to have a consistent method of informing drone operators of any 
restrictions--an issue being considered by the Drone Advisory 
Committee.
    We recognize that there are unique concerns raised by UAS that are 
different from manned aircraft operations, and State, tribal, and local 
governments have expressed a desire for increased control over 
operations. This is one of the key questions that the Drone Advisory 
Committee (DAC) (which consists of representatives from industry, 
government, labor, and academia) has been tasked with. The DAC will 
allow us to look at drone use from every angle, while considering the 
different viewpoints and needs of the diverse UAS community. The first 
DAC meeting was held in September 2016 and its members have already 
started to work on assisting us on identifying the roles and 
responsibilities of drone operators, manufacturers, and Federal, state, 
and local officials related to drone use in populated areas. One of the 
questions debated is what the appropriate altitude in which State, 
tribal, and local governments may have an increased role to play in 
regulating UAS. FAA believes it would be appropriate to obtain the 
benefits of the DAC's deliberations before establishing definitive 
parameters for State, tribal, and local governments' roles and 
responsibilities.

    Question 2. I am particularly interested in the enforcement 
problem. In Las Vegas, McCarran International Airport has faced issues 
with recreational drone use near the Strip that can interfere with 
aviation traffic. How can airports and the FAA work together with drone 
users to protect safety while allowing recreational use of drones?
    Answer. In accordance with the decision of the D.C. Circuit Court 
of Appeals in Taylor v Huerta, model aircraft owners operating 
exclusively under the Special Rule for Model Aircraft (section 336 of 
Public Law 112-95) are no longer are required to register. The lack of 
a registration requirement for this subset of recreational users 
significantly hinders owner education, owner accountability and FAA's 
enforcement ability. For example, as part of the UAS registration 
process, UAS registrants receive and acknowledge safety information, 
including the requirement that model aircraft operators must notify any 
airport and air traffic facility within five miles of their intent to 
operate. Owners of UAS operating exclusively under the Special Rule for 
Model Aircraft may no longer receive this information because they are 
no longer required to register. This is one of many reasons FAA sees 
the registration of all UAS as essential to maintaining the safety of 
the NAS. Registration also helps law enforcement associate aircraft 
with owners in the event of an incident. This however is only possible 
if registration is required for that UAS.
    To enhance safety around airports, FAA has stepped up public 
education campaigns, and has assembled an interagency group with DHS 
focused on evaluating UAS detection systems around airports.
    Congress has already recognized the challenges FAA faces in 
maintaining safety, and included several mandates in the recent FAA 
Extension, Safety, and Security Act of 2016 that FAA is implementing. 
This includes providing safety statements to go in UAS packaging 
(Section 2203) and standards for remotely identifying UAS and their 
operators (Section 2202).

    Question 3. My understanding is that the FAA was supposed to 
conduct a test project about airport-drone mitigation. Can you provide 
an update on those efforts?
    Answer. Last November we sent a team to evaluate three different 
detection systems at the Denver International Airport. We worked in 
collaboration with DHS and the Nevada and North Dakota test sites on 
this testing. More tests will take place at Dallas-Fort Worth. We will 
continue to evaluate a number of drone-detection technologies, 
including limited evaluations of radio frequency (RF) based 
capabilities, to the extent currently permitted by law. We are also 
coordinating with our interagency partners who have broader authorities 
to evaluate mitigation/counter technologies.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Hon. Elaine L. Chao
    Question 1. Under the Administration's proposal to privatize the 
air traffic control system (ATC), there would be a three-year 
transition period, after which all authorities and infrastructure would 
be transferred to the new entity. How do you envision the Department 
and the FAA maintaining momentum on modernization during such a 
transition period?
    Answer. Currently, FAA's funding is tethered to unwieldy, complex, 
and often unpredictable Federal and Congressional processes--none of 
which are conducive to the long-term planning needed for modernization. 
A large, complex, 24/7 service organization operating within a slow, 
bureaucratic, government agency, dependent on an unpredictable 
political appropriations process will, at best, only deliver sporadic 
and incremental change. Among other things, separation from the Federal 
Government would accelerate capital investment by allowing the new 
entity to borrow from financial markets.
    Although the U.S. remains the gold standard in aviation, the FAA 
understands that continued innovation and modernization are important 
to safety and global leadership. While NextGen modernization has been 
implemented at certain airports and facilities under current 
constraints, the FAA's efforts are often hampered by piecemeal 
government appropriations (e.g., continuing resolutions, sequesters) 
and a slow Federal procurement process. A private, nonprofit ATC 
cooperation would be able to leverage private sector financial tools 
with more flexibility and, therefore, accelerate implementation of 
aviation technology. Combined with a steady, predictable revenue stream 
from user fees and borrowing from capital markets when necessary, the 
new corporation would be able to make the best modernization investment 
decisions to keep ATC technology up-to-date and competitive with that 
of our global peers.

    Question 2. Will the FAA and the Department of Transportation or 
the corporation's CEO and Board determine the priorities and funding 
allocations for modernization programs during the transition?
    Answer. The Administration's principles for modernizing air traffic 
control specifically state that the transition period should be subject 
to milestones that are developed and monitored by the Secretary of 
Transportation to ensure that planning and implementation progress is 
made. In addition to the safety oversight role, the Department and the 
FAA will continue to play a large role in shaping modernization 
priorities during the transition. Additionally, the Secretary will be 
responsible for reviewing changes to airspace proposed by the new 
organization. In doing so, the Secretary will ensure that any proposed 
changes comply with performance-based regulations, which will encourage 
airspace efficiencies and modernization.

    Question 3. What guarantees are there in the Administration's 
proposal that modernization will remain a priority if Congress 
legislates a non-government Air Traffic Organization? How would 
modernization initiatives be funded after the transfer to the private 
entity is complete?
    Answer. In the transition period, the Department and the FAA will 
work with the NextGen Advisory Committee to continue implementation of 
the four existing NextGen Integrated Working Group areas (multiple 
runway operations, performance-based navigation, surface operations and 
data sharing, and data communications), as well as assess and track 
performance goals and measure NextGen benefits. These benefits will 
allow Congress, stakeholders, and the public to clearly measure the 
delivery of NextGen benefits in the transition period, including with 
respect to increasing safety, reducing aviation's impact on the 
environment, enhancing controller productivity, and increasing 
predictability, airspace capacity, and efficiency.
    After the transition, the Administration believes that the new 
entity should be financially self-sustaining through imposition and 
collection of fees that are sufficient to cover costs of operations as 
well as recapitalization and continued modernization of the air traffic 
control system.
    To be clear, the critical aviation safety activities such as the 
certification of manufacturers and pilots, safety oversight of aviation 
operators and the air traffic control private entity, and the 
regulation of new entrants such as UAS, would be maintained in the FAA. 
The Administration is committed to working with Congress to foster 
American innovation in aviation and solidify America's role as the 
global leader in aviation. This transition will be vital to provide 
operational continuity and protections for existing employees and 
system users--all without impact to the FAA's safety mission.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Hon. Elaine L. Chao
Issue No. 1: Rail safety
    In 2008, Congress required railroads to have safety plans. Many 
already do that, but this ensures they do it and do it right. The Obama 
administration finalized a rule at the end of the last administration 
concerning passenger railroads; it wasn't perfect, but it was progress. 
Then the new Trump administration decided to forego implementing it, 
delaying through the first half of the year. In early June, DOT 
announced the rule would be stayed another six months.
    Question 1. Why is the system safety rule repeatedly being 
delayed--despite being mandated by Congress nearly a decade ago?
    Answer. At the start of this year, the White House issued guidance 
requesting a review of new and pending regulations. The system safety 
program final rule is one of the regulations under review. This review 
includes petitions for reconsideration of the final rule.
    Three months after publication of the system safety program final 
rule, four petitions for reconsideration of the rule and a comment on 
issues raised in the petitions were filed. As these petitions raise 
complex legal issues, DOT is doing a thorough review and assessment to 
provide an appropriate response. As part of its response, DOT plans to 
meet with the Railroad Safety Advisory Committee in October to discuss 
the petitions and responses with the necessary stakeholders.

    Question 2. Can I get your commitment that there will be no more 
delays?
    Answer. DOT would like to implement this rule as soon as possible; 
however, it is vital that the necessary stakeholders provide input on 
the petitions for reconsideration. Once that is complete, DOT will 
issue a response to the petitions and implement the rule.
Issue No. 2: Enforcement of the PTC requirement
    In early June, the FRA released the latest numbers regarding 
railroad efforts to implement Positive Train Control. As you know, this 
technology could have saved the lives of hundreds of people over the 
years--had it been installed. For nearly 50 years the National 
Transportation Safety Board has been urging railroads to implement it. 
Railroads have a 2018 deadline--that of course comes after an original 
2015 deadline was pushed back.
    The numbers recently released aren't promising. It's becoming clear 
many major freight railroads will miss the deadline. And some passenger 
railroads too.

    Question 3. How are you going to make sure railroads meet the 
deadline?
    Answer. I will work with the Federal Railroad Administration to 
continue overseeing the rail industry's progress towards implementing 
positive train control (PTC) systems and to ensure each railroad 
subject to the statutory mandate--including Class I railroads, Amtrak, 
and commuter railroads--fully implements a PTC system. In May 2017, FRA 
sent a letter to each railroad at risk of both not meeting the December 
31, 2018, implementation deadline and not completing the statutory 
requirements necessary to receive an extension. In June 2017, FRA also 
notified governors and state DOTs of the commuter railroads in their 
states that are at risk of not meeting the deadline and encouraged 
their direct involvement, as necessary, to ensure commuter railroads 
prioritize PTC system installation, PTC field testing, and full PTC 
system implementation.
    I am aware of the technological struggles and costs associated with 
PTC implementation and am committed to working with the railroads to 
ensure proper implementation of PTC technology by the deadline in 
December 2018.

    Question 4. What fines and penalties will you impose for railroads 
that miss the deadline?
    Answer. My first and foremost priority is to ensure compliance and 
progress are being made under the extended deadline provided by 
Congress. The Department of Transportation and Federal Railroad 
Administration are working diligently with the railroads to hold them 
accountable and make certain they are progressing towards compliance.
    I am aware that PTC implementation is costly and, in some cases, 
technologically challenging, and am committed to working with the 
railroads to ensure proper implementation of PTC technology. As we 
approach the December 31, 2018, implementation deadline, the Federal 
Railroad Administration will consider all administrative actions 
available to best facilitate PTC implementation.
    Additionally, Congress has afforded the Secretary of Transportation 
administrative authority to extend the full compliance deadline beyond 
2018 to 2020, if railroads meet certain statutory requirements. The 
Department and the Federal Railroad Administration will continue to 
monitor compliance with the statutory PTC mandate and will strongly 
emphasize the importance of meeting the December 31, 2018 
implementation deadline. If railroads fail to comply with the statutory 
deadline, the Department will consider its enforcement options.
Issue No. 3: Unfilled positions at DOT for key safety oversight roles
    The administration has yet to nominate anyone to head the Federal 
Railroad Administration, National Highway Traffic Safety 
Administration, Federal Transit Administration, and many other agencies 
that oversee safety.
    At your nominations hearing, you said safety is your biggest 
priority. In response to questions I posed concerning safety, you said 
you'd task administrators with accomplishing those goals. But there are 
no administrators.

    Question 5. When will the president nominate someone to oversee 
these many agencies?
    Answer. I share in your sense of urgency to fill the leadership 
roles for the agencies at the Department. The Administration is making 
progress. The Senate recently confirmed the Maritime Administrator, and 
the Commerce, Science and Transportation Committee reported the 
nomination for the Federal Railroad Administration. The Department 
hopes for his swift Senate confirmation. We also expect the President 
to soon announce nominees for other key positions at DOT.

    Question 6. What are you doing to address this void in safety 
leadership?
    Answer. Safety is paramount at the Department of Transportation 
and, despite the vacancies that exist for Senate confirmed leadership 
positions; we have the benefit of a professional and knowledgeable 
corps of career employees who are equally dedicated to safety.

    Question 7. How are you addressing safety issues in the absence of 
any administrators?
    Answer. Please see the response to question 6.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                          Hon. Elaine L. Chao
Subcontractors
    I'm very concerned about recent trends in the subcontracting of our 
cabin cleaners, caterers, and wheelchair attendants. Last month, 
Senator Brown and I sent letters to the CEOs of each of the major 
airlines asking for more information about their increased reliance on 
the subcontracted workforce.
    As a former Labor Secretary, you are uniquely suited to understand 
the role workers play in the transportation sector.

    Question 1. Do you think we can and should do more to improve labor 
conditions for workers that play these vital roles?
    Answer. The aviation industry workforce is a crucial segment of the 
Nation's economy. The Department's Bureau of Transportation Statistics 
(BTS) recently released figures showing significant gains in the 
employment numbers for U.S. scheduled passenger airlines. According to 
BTS statistics, there were 3.6 percent more airline workers in May 2017 
than in May 2016. This growth in jobs is a positive trend for the 
economy, the airlines and the airline employees. We hope to see this 
trend continue, and support conditions that encourage industry growth.

    Question 2. What do you think airlines can do to improve labor 
conditions for workers--both the primary workers employed by the 
airlines, and the workers employed by the companies airlines 
subcontract with?
    Answer. Pay, benefits, and working conditions have generally been a 
subject for collective bargaining in the airline industry. Growth in 
compensation and better labor conditions depends in large part on the 
health of the aviation industry. We must pursue policies that ensure 
the vitality of airlines.
Importance of Minority-Owned, Women-Owned, and Disadvantaged 
        Business Enterprises in Airport Infrastructure Projects
    For decades, the United States Department of Transportation has 
required airports to set goals for the inclusion of minority-owned, 
women-owned, and disadvantaged businesses in federally-funded projects.
    This is a successful program across multiple transportation 
agencies, which is why I included an amendment to last year's FAA 
reauthorization legislation that aligns the Department of 
Transportation (DOT)'s definition of a small business with that used by 
the Small Business Administration (SBA). This amendment passed the 
Senate but unfortunately it was not included in the FAA extension bill 
that became law.

    Question 3. Do you agree that it is important to include small 
business owners from historically disadvantaged groups in federally 
funded airport infrastructure projects?
    Answer. The Department is committed to and strongly supports the 
long-standing involvement of disadvantaged businesses enterprises 
(``DBEs'') in federally-funded airport infrastructure projects. We 
recognize the economic opportunity that such projects provide to 
emerging businesses, and such business opportunities are often valuable 
as a means of highlighting the economic importance of the airport to 
surrounding communities.

    Question 4. Will you commit to work with Congress to expand access 
and remove obstacles to participation for disadvantaged small business 
owners in these projects?
    Answer. The Department stands ready to work with Congress to expand 
access and remove obstacles to participation for qualified 
disadvantaged small business owners in federally-funded airport 
infrastructure projects.
DBEs in AIP vs. PFC
    The Airport Improvement Program (AIP) and the Passenger Facility 
Charge (PFC) are both important funding streams for airport 
infrastructure projects. However, unlike the AIP, the PFC program does 
not set participation goals for women-and minority-owned small 
businesses, otherwise known as disadvantaged business enterprises 
(DBEs).
    Meanwhile, PFCs are eclipsing AIP as the primary funding source for 
airport infrastructure. This means that DBEs are missing out on more 
and more contracting opportunities for these projects. According to a 
2015 report prepared for the Airport Minority Advisory Council, the 
cost of these missed opportunities may be as high as $564 million.\1\
---------------------------------------------------------------------------
    \1\ AMAC, ``DBE Analysis of AIP vs. PFC-Funded Projects,'' P. 9. 
March 20, 2015.

    Question 5. What is the Department's plan to improve DBE 
participation in PFC-funded projects?
    Answer. PFCs play an important role in airport infrastructure 
funding and provide a certain level of flexibility upon which airports 
rely. Ever since the PFC program was established by law 27 years ago 
(in 1990), it has been treated as a special form of local revenue 
subject to Federal approval. Consequently, the PFC program has never 
been subject to any of the Federal requirements associated with Federal 
funds. For example, PFC-funded projects are not required to follow 
Federal procurement rules, Buy American requirements, etc.
    At the same time, local jurisdictions that have their own DBE 
programs and goals (which are often higher than the Federal targets) 
and can apply those goals to PFC-funded projects. It is also worth 
noting that many airports combine AIP and PFC funding in a single 
contract, and many airports use PFCs for the local share of AIP grants. 
In such cases, DBE requirements apply to the entire project or 
contract.

    Question 6. Would it be helpful to update legislation in this area?
    Answer. In order to apply the DBE program to PFC-funded projects, a 
statutory change would be necessary. If such legislation is proposed, 
the Department would consider it carefully.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                         to Hon. Elaine L. Chao
    Question 1. Boulder City in my state is a non-towered airport that 
had about 100,000 aircraft operations in CY 2016. They have experienced 
several incidents where aircraft using crossing runways at the same 
time have had close calls. A contract tower would clearly add an 
important layer of air traffic safety at the airport. Also, Boulder 
City had about 250,000 air carrier passenger enplanements in CY 2015, 
an increase of 15 percent over CY 2013. What are DOT/FAA's plans to 
make sure the contract tower program is protected and enhanced for 
participating airports and those interested in getting into the program 
including Boulder City?
    Answer. The Department shares your commitment to ensuring that the 
FAA provides cost-effective air traffic services that enhance the 
safety of the national airspace system. To this end, the FAA is 
allowing new towers into the program. Candidate airports that have 
already received a benefit-cost (BC) ratio of 1.0 or greater can 
continue the process of entering the Contract Tower program. Consistent 
with the FY17 omnibus appropriations, the FAA is also evaluating 
outstanding applications to join the program, including Boulder City 
Municipal Airport. When this evaluation is complete, any applicant 
receiving a BC ratio of 1.0 or above will be considered eligible to 
join the Contract Tower program, subject to funding availability and 
meeting operational requirements. Any applicant receiving a BC ratio 
below 1.0 will have an opportunity to appeal the results to the FAA.
    In addition to its review of applications, the FAA is currently in 
the process of conducting studies that will inform a revised 
methodology for the benefit-cost analysis. The FAA expects that these 
studies will be completed shortly. It has been over 25 years since the 
FAA reviewed the safety and efficiency effects of these towers. Based 
upon this updated information, the FAA will develop its revised 
methodology that will go through public notice and comment. The FAA 
will then use the updated methodology to conduct benefit-cost analysis.

    Question 2. During the hearing we discussed aspects of UAS, and I 
asked you: ``I also know that there's been Federal personnel hiring 
freezes and the executive order requiring two-for-one regulations. I 
want to make sure that those programs or those policies are not holding 
back any of the development into the UAS research and regulations.'' To 
which you responded that you didn't believe those policies hadn't 
impacted progress, but that you would take a look. I would appreciate 
you following up with what you found out about the impact of staff 
limitations or regulation restrictions on movement needed UAS 
activities, including the UAS research, development, or enforcement of 
FAA policies or regulations.
    Answer. The FAA has reviewed the Enforcing the Regulatory Reform 
Agenda and Hiring Freeze Executive Orders (EO). On the former, the FAA 
recently tasked our existing Aviation Rulemaking Advisory Committee 
(ARAC) to provide recommendations on complying with the regulatory EO. 
We look forward to reviewing the recommendations to help inform future 
rulemaking activities.
    We are still moving ahead with our efforts to integrate UAS into 
the NAS. For example, as you know, we've been working on our next 
rulemaking to allow small unmanned aircraft to fly over people under 
specific circumstances. Flying UAS over people raises safety questions 
because of the risk of injury in the event of a failure. It also raises 
security issues, and we are working with our interagency partners to 
reconcile these challenges.
    Moreover, the FAA can still process waivers and exemptions to 
regulations to allow UAS integration on a case-by-case basis. The FAA 
will continue to work on regulations that enable new UAS operations in 
a safe manner, so we can demonstrate the regulations are potentially 
beneficial to the UAS industry, while also achieving FAA's safety and 
integration goals.
    On the hiring freeze, as a Federal sub-agency under the Department, 
the FAA is included in the Federal-wide hiring freeze. The FAA has 
coordinated with the Department to define the vacant positions needed 
to be filled in order to sustain FAA's public safety and national 
security responsibilities as well as exemptions for critical positions 
which may become vacant in the future while the hiring freeze is in 
effect. Aerospace engineers, aviation safety inspectors, and air 
traffic controllers are exempt from the freeze due to their public 
safety responsibilities. FAA's employees are dedicated to their work, 
and are committed to ensuring that UAS integration continues unimpeded.

    Question 3. Also on drones, during your recent remarks at a 
conference in Fargo, ND, you stated: ``The FAA is also crafting a pilot 
program designed to let local communities try different regulatory 
concepts for controlling drone activity. This will generate data and 
best practices that the Department can use to help ensure the safety of 
people and property on the ground and in the air.'' Can you please 
provide me with (a) additional background on this specific program, 
including whether this includes flights beyond the line of sight and 
over populations, (b) regular updates on the progress of this 
initiative, and (c) specifics on how communities like Reno and Las 
Vegas can be included and helpful in this effort?
    Answer. The Department and FAA are working to develop a program 
that will foster innovation and generate data to support further 
integration of UAS into the NAS. To that end, we are examining all 
possibilities for meaningful partnership with communities, including 
those involving operations that can be authorized under existing legal 
authority. We hope to have broad participation from communities 
interested in being on the leading edge of UAS integration. We will 
provide more information on how those communities can participate when 
the program is finalized.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
